<html>
<title> - DEPARTMENT OF ENERGY: MANAGEMENT AND PRIORITIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                         DEPARTMENT OF ENERGY:
                       MANAGEMENT AND PRIORITIES

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 30, 2018

                               __________

                           Serial No. 115-45

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-932 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7b1c0b143b180e080f131e170b5518141655">[email&#160;protected]</a> 


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY McNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
JIM BANKS, Indiana                   COLLEEN HANABUSA, Hawaii
ANDY BIGGS, Arizona                  CHARLIE CRIST, Florida
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                            
                            
                            C O N T E N T S

                            January 30, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     4
    Written Statement............................................     6

Statement by Representative Marc A. Veasey, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives
    Written Statement............................................    12

                               Witnesses:

The Honorable Paul Dabbar, Under Secretary for Science, U.S. 
  Department of Energy
    Oral Statement...............................................    14
    Written Statement............................................    16

The Honorable Mark Menezes, Under Secretary of Energy, U.S. 
  Department of Energy
    Oral Statement...............................................    24
    Written Statement............................................    26

Discussion.......................................................    35


             Appendix I: Answers to Post-Hearing Questions

The Honorable Paul Dabbar, Under Secretary for Science, U.S. 
  Department of Energy...........................................    70

The Honorable Mark Menezes, Under Secretary of Energy, U.S. 
  Department of Energy...........................................    83

 
                         DEPARTMENT OF ENERGY:
                       MANAGEMENT AND PRIORITIES

                              ----------                              


                       TUESDAY, JANUARY 30, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:08 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. The gentleman from Texas, Mr. 
Veasey, is going to substitute for our Ranking Member today, 
and we will recognize him momentarily. But I do want to say 
that the Chair notices the excellent turnout on his left and 
appreciate being able to look down the row and see everybody 
here just about, so I appreciate the good attendance.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    And welcome to today's hearing entitled ``Department of 
Energy: Management and Priorities.''
    I'll recognize myself for five minutes for an opening 
statement and then the Ranking Member.
    Today, we welcome Mr. Paul Dabbar, the Under Secretary for 
Science; and Mr. Mark Menezes, the Under Secretary of Energy, 
to testify about the Department of Energy's priorities under 
this Administration.
    As the Committee awaits the President's fiscal year 2019 
budget request, our discussion today will focus on broad 
priorities and management at the DOE. DOE is the leading 
federal sponsor of research in the physical sciences and is a 
world leader in basic science research and technological 
development.
    Our witnesses today are responsible for managing the bulk 
of the DOE programs within the Science Committee's 
jurisdiction, including over $9 billion in civilian research, 
development, demonstration, and commercial application 
programs, as well as the DOE national labs. This amounts to 1/3 
of the DOE's budget.
    At the World Economic Forum in Davos, Switzerland, last 
week, Secretary Perry explained that ``America First'' means 
maintaining American competitiveness around the world and being 
the lead provider of energy resources and technology on the 
global market. Significant investments in basic science 
research by foreign countries like China threaten America's 
global standing as the leader in scientific knowledge. Without 
continued investment in basic and early-stage research at the 
DOE, the United States will lose its global technology edge.
    DOE must also invest in the research infrastructure that 
brings the best scientists in the world to the United States. 
That's why this Committee has advanced bipartisan legislation 
to upgrade and construct best-in-the-world light sources, 
photon sources, and neutron sources to facilitate discovery 
science.
    The House has repeatedly passed legislation to authorize 
the construction of the Versatile Neutron Source, which would 
ensure that the next generation of nuclear reactors can be 
developed here in the United States.
    Last month, Secretary Perry announced a reorganization of 
the Department's management structure. This reorganization 
restores the statutorily directed role of each Under Secretary, 
prioritizing the science and energy missions within DOE. This 
approach refocuses DOE civilian research programs on the basic 
and early-stage research that industry cannot perform. The two 
Under Secretaries share oversight responsibility for the 
national laboratory system. DOE's national labs attract the 
best scientists, engineers, and entrepreneurs from around the 
world, and it is critical that the system of labs operate 
efficiently.
    Our witnesses today also share jurisdiction over the many 
functions designed to foster cooperation across DOE programs 
such as crosscutting research initiatives, energy innovation 
hubs, and multipurpose research facilities. We look forward to 
hearing from our witnesses today about how they will maximize 
cooperation between their respective programs and work to 
prevent unnecessary duplication or cost overruns at the 
Department.
    By investing wisely in basic and early-stage research, the 
Department can achieve its goal of scientific discovery and 
technological breakthroughs for future generations.
    [The prepared statement of Chairman Smith follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. Before I recognize the gentleman from 
Texas, let me just say to my colleagues that I have a Judiciary 
Committee markup going on, and I'm going to need to leave after 
my questions. And the gentleman from Texas, the Chairman of the 
Energy Subcommittee, Mr. Weber, will stand in as acting 
Chairman.
    I now recognize the substitute Ranking Member, the 
gentleman from Texas, Mr. Veasey, for his comments.
    Mr. Veasey. Chairman Smith, thank you very much. And I 
would like to let everybody know if you have not already heard 
that the Ranking Member of the Committee, Eddie Bernice Johnson 
of Dallas, she is at home. She lost her brother that was the 
youngest in their family. That's the second sibling that she's 
lost in the last three months, and so I hope you that will keep 
her in her your thoughts and prayers.
    Also, Chairman Smith, I want to thank you for holding this 
hearing and thank you, Under Secretary Dabbar, and Under 
Secretary Menezes, for being here today. I'm very pleased that 
we are finally beginning to hold hearings with Senate-confirmed 
representatives of the Administration that are here testifying 
today. I hope that means that we'll finally have Secretary Rick 
Perry, our former Governor of Texas, in this room shortly after 
the President's 2019 budget is released, which was the common 
practice for this committee before last year.
    There are a wide range of issues regarding direction and 
management of DOE's incredibly important portfolio of 
facilities and programs that I hope we will be able to discuss 
in depth this morning. I'd like to start off this conversation 
by touching on just a few of them. And at this point it 
shouldn't surprise anyone here that I'm very concerned, as are 
many, about the Department's proposed budget for 2018. I'm sure 
I speak for many of my Democratic colleagues when I say that I 
am even more concerned about what it implies about the 
Administration's priorities going forward.
    That budget proposal would cut sustainable transportation 
and renewable energy by 70 percent and energy efficiency by 80 
percent. It would also cut critical research on the electric 
grid and fossil fuels in half. It would cut the Office of 
Science by 17 percent and nuclear energy by 30 percent, and it 
would eliminate ARPA-E, the Loan Programs Office, and our 
entire portfolio of Energy Innovation Hubs. All of these 
programs have strong records of success to justify not only 
their existence but increased investments.
    These proposed cuts make no sense at all. As many of my 
colleagues have pointed out before, we won't balance the budget 
by slashing our research funding. For an insignificant short-
term deficit reduction, we will make the United States less 
competitive, lose jobs, harm our public health, and hobble our 
international R&D partnerships. The Administration rationalized 
these cuts by suggesting the private sector would simply start 
funding these key research areas once the Federal Government 
cuts removed them from its budgets.
    But it is not based on anything resembling a rigorous 
review process, let alone reality. In fact, Administration 
officials confirm that they did not engage with the private 
sector at all. They didn't engage with them at all to determine 
what industry would be able or willing to pick up. Mr. Dabbar, 
Mr. Menezes, I recognize that you are really not responsible 
for this proposal, given that you were only confirmed in 
November, but I hope that under your leadership that we can get 
back to reality and continue our strong support for these high-
value research programs. They are vital for American 
competitiveness, our quality of life, and our scientific 
leadership.
    I would also like to get a much better understanding of 
rationale behind the new organizational structure for the 
Department that was announced in December. In my view, the 
reorganization led by Secretary Moniz made a lot of sense. 
Having a single Secretary for science and energy enabled 
improved coordination and collaboration across DOE's 
nonmilitary research enterprise. Specifically, it helped break 
the historical unproductive stovepipes between the DOE's Office 
of Science and the Applied Energy Offices. So it is not clear 
to me why breaking them up into separate pieces under different 
Secretaries again is a step in the right direction. And putting 
the Department's daunting environmental management mission, 
which previously had its own Under Secretary under the science 
portfolio adds its own challenges.
    I understand that Mr. Dabbar has a unique background in 
overseeing those issues, but then perhaps it would have made 
more sense to stick with the previous structure and make him 
Under Secretary for management after all. But whatever DOE 
organizational charts says, I hope we can all find common 
ground on ensuring that the Department's science and energy 
innovation pipeline is as strong as possible.
    I look forward to working with the both of you on these 
issues in the coming months and years ahead. And once again, 
thank you for being here to testify, and I hope that we will 
get the Secretary soon. And again, Mr. Chairman, I yield back 
my time. Thank you.
    [The prepared statement of Mr. Veasey follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

[The prepared statement of Ranking Member Eddie Bernice 
Johnson:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. Thank you, Mr. Veasey. I'll introduce our 
witnesses, and the first is the Honorable Paul Dabbar, Under 
Secretary for Science at the U.S. Department of Energy. Mr. 
Dabbar serves as the principal advisor on fundamental energy 
research, energy technologies, and science. Prior to 
confirmation as Under Secretary for Science, Mr. Dabbar worked 
in operations, finance, and strategy roles in the energy 
sector. He received a bachelor of science from the U.S. Naval 
Academy and an MBA from Columbia University.
    Our second witness is the Honorable Mark Menezes, Under 
Secretary of Energy, at the U.S. Department of Energy. Mr. 
Menezes served as the Department's principal advisor on energy 
policy and on a wide array of existing and emerging energy 
technologies. Prior to being confirmed as Under Secretary of 
Energy, Mr. Menezes was an executive with Berkshire Hathaway 
Energy in the Washington, D.C., office. He received both his 
undergraduate and juris doctor degree from Louisiana State 
University.
    We welcome you both, and, Secretary Dabbar, if you'll 
begin.

            TESTIMONY OF THE HONORABLE PAUL DABBAR,

                  UNDER SECRETARY FOR SCIENCE,

                   U.S. DEPARTMENT OF ENERGY

    Mr. Dabbar. Thank you, Chairman Smith, and thank you, 
Acting Ranking Member Veasey and Members of the Committee. It's 
an honor to highlight the mission of the Under Secretary of 
Science, which includes the Offices of Science, Technology 
Transitions, Environmental Management, and Legacy Management.
    America's global leadership in science remains dominant, 
and I look forward to recounting to you how DOE is fueling the 
country's scientific future. In the areas covered by the Office 
of Science, these are very exciting times for our national lab 
complex and our programs. Our programs cover the world's 
cutting-edge research and high-energy nuclear and plasma 
physics, materials in chemistry, biological and environmental 
systems, next generation high-performance computing, and basic 
research for advancement in new energy technologies. They are 
on the cusp of significant progress for the Nation and the 
world.
    Let me just tell you about a fraction of the major 
innovation your national labs are executing on. In the Office 
of Science jointly with the Applied Energy Offices we have more 
than ten different battery and storage technologies with 
capacity to outperform lithium ion batteries used in the 
current market. The lab at Argonne has even branded their 
program Beyond Lithium-Ion. Who says scientists can't market?
    In the area of bioscience, we have built on our historical 
leadership in the Human Genome Project and gene editing to move 
whole segments of DNA from one organism to another. This is a 
breakthrough which has continued our leadership in microbial 
biotechnology that will allow for manufacturing of therapeutic 
drugs in a way never imagined a few years ago. This will also 
advance significant possibilities in food applications, 
environmental remediation, and biosecurity. We even have the 
ability to store data for computers in DNA.
    Here are some other very exciting examples for our upcoming 
projects: In advanced computing, we're on the cusp of 
completing the first of three exascale computers that will 
conduct 10 to the 18th calculations per second. With this 
capability we will be able to model and evaluate data in 
complex science areas such as elementary particles for research 
for quarks, gluons, and neutrinos. We will also have 
significant jumps in practical applications such as using the 
world's leading deep neural networks and artificial 
intelligence capabilities far beyond what is commercially 
available for cancer research.
    In the areas of particle physics, we are nearing the 
completion of the world's largest neutrino experiment, which 
will generate and shoot neutrinos from Fermilab outside Chicago 
up through the earth to our detector facility deep underground 
in South Dakota, moving forward humanity's knowledge of this 
evasive particle.
    In the area of astrophysics, we're in the process of 
finishing construction of several new detectors to collect data 
on the amount of dark energy in the universe and hopefully 
detect dark matter particles directly.
    And finally, we're at the world's cutting-edge for quantum 
computing development, potentially developing computers to use 
electrons or even photons of light for calculation medium 
rather than transistors using 1's and 0's. These are very 
exciting times. The national labs have rightfully earned the 
title from Secretary Perry as the crown jewels of the 
Department.
    As you know, the Department grants over $3 billion a year 
also to universities all over the country in all of your 
States. We seed the country's next generation of research and 
students all over the country every year.
    I encourage each of you to visit even more of the labs. 
There are far more truly amazing innovations than I have time 
to list through here today, and I would be glad to facilitate 
any additional visits anywhere in the country for any of you.
    In the area of advancing technology transitions, this is an 
area of particular passion for me and a core area for the 
Department. I look forward to leading the Energy Investor 
Center, as well as the other DOE programs and our national labs 
to coordinate all our department efforts in this area and look 
forward to facilitating engagement with investors and industry.
    And in the area of environmental management, we continue to 
execute on many long-lived cleanup projects, and we are 
tackling projects long-delayed such as vitrification in Hanford 
and looking at options for more closeouts.
    In conclusion, human development has hinged on our innate 
ability to explore. Our organization has some of the top 
explorers in the history of the world: Einstein, Oppenheimer, 
Lawrence, Rickover, and Fermi. This organization and more 
specifically the special people in the Department and its labs 
are now the legacy of that foundation, we are posed to use our 
creativity and resources to explore a little more about that 
unlimited universe, and we will maintain the standard advocated 
by Einstein to be passionately curious.
    Thank you, and I'll look forward to answering your 
questions.
    [The prepared statement of Mr. Dabbar follows:]
   
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Secretary Dabbar.
    And, Secretary Menezes.

            TESTIMONY OF THE HONORABLE MARK MENEZES,

                   UNDER SECRETARY OF ENERGY,

                   U.S. DEPARTMENT OF ENERGY

    Mr. Menezes. Chairman Smith, Ranking Member Veasey, and 
Members of the Committee, thank you for the opportunity to 
testify before you today along with my colleague, Under 
Secretary for Science Paul Dabbar, on behalf of the 
Administration on the Department of Energy's management and 
priorities. And we understand we are the first confirmed 
appointees to appear before this committee.
    In mid-December, Secretary Perry announced a realignment, 
the goal of which was to set forth a reporting framework that 
allows the Department's organizational statutes--that follows 
the Department's organizational statutes, advance the 
Administration's priorities, best address the Nation's present 
and future energy challenges, and refocus on its core missions 
of promoting America's energy security, spurring innovation, 
reducing regulatory burden, enhancing national security through 
nuclear science, and addressing the obligation of legacy 
management and nuclear waste.
    This realignment returns the Department to its original 
statutory framework with an Under Secretary and, as proposed by 
this Committee and established by Congress in 2005, and Under 
Secretary for Science. The Under Secretary for Nuclear Security 
and Administrator of the NNSA, as established by Congress in 
1999, was not changed by this realignment.
    Through careful prioritization and ensuring funding goes to 
the most promising research, DOE, through its national 
laboratories, will continue to support the world's best 
enterprise of scientists and engineers whose innovations drive 
American prosperity, security, and competitiveness for the next 
generation.
    We look forward to moving ahead with an aggressive focus on 
an all-of-the-above energy strategy that will improve the 
development of energy infrastructure, including pipelines, 
smart grids, small modular nuclear reactors, and energy 
storage. Along with the public-private partnerships with our 
national labs, we will bring research technology to market, 
helping us address our nation's energy challenges.
    This realignment allows the Department to focus on its 
priority of energy security through energy dominance and 
economic competitiveness, placing the energy offices--the 
Office of Energy Delivery and Energy Reliability, the Office of 
Energy Efficiency and Renewable Energy, the Office of Fossil 
Energy, the Office of Indian Energy, and the Office of Nuclear 
Energy under the direction of an Under Secretary of Energy. 
This structure allows the Department to apply personnel and 
resources to pursue the President's ``America First'' energy 
plan. By utilizing all forms of our nation's energy resources, 
we can achieve energy security and economic strength at home 
and energy dominance through exports to markets abroad.
    As the Under Secretary of Energy, I manage a comprehensive 
energy portfolio that includes the applied laboratories. 
Overseeing the network of applied labs, as well as energy 
programs, requires a focus on cooperation and collaboration. We 
are proud of the hard work and dedication our federal workforce 
has shown to the mission, collaboration and coordination with 
the program offices, and the focus on the priorities of DOE and 
the Administration.
    Along with the energy program offices, the realignment 
includes having the Office of Policy and the Loan Programs 
Office report through the Under of Energy and maintains two 
DOE-wide management and performance functions: the Office of 
Environment, Health, Safety, and Security; and the Office of 
the Project Management Oversight Assessments.
    Now, having just returned from a visit to the National 
Renewable Energy Laboratory and the Idaho National Lab, I can 
speak firsthand to the progress being made with early-stage R&D 
at these labs. At NREL, lignocellulosic biomass is being 
deconstructed to sugars to unlock the potential for renewable 
carbon fibers. Working with INL, both labs are creating new 
biofuels and discovering new properties of hydrogen.
    While at INL, I participated in a roundtable discussion 
with the national lab's Chief Research Officers from all 17 
labs. All were world-class scientists enthusiastic on their 
visions and projects and genuinely excited at the opportunities 
and support this Administration has provided, allowing them to 
free up human capital and focus on their mission in removing 
overly burdensome reporting requirements.
    The Department appreciates the Committee's interest in its 
work, and we look forward to working with you on opportunities 
to foster and promote responsible energy development and 
promote energy dominance through--and security through science.
    Thank you again for the opportunity to be here today, and I 
look forward to your questions.
    [The prepared statement of Mr. Menezes follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Secretary Menezes.
    Secretary Dabbar, let me address my first question to you, 
and it is this: that last year the House passed a Science 
Committee bill. I'm sure you're familiar with it. It was called 
the Department of Energy Research and Innovation Act. And it's 
my understanding that a lot of the provisions in that bill such 
as prioritizing advanced nuclear reactor infrastructure and 
opening up our national labs to be more readily acceptable and 
accessible to industry are provisions that could be 
implemented, for lack of another word, unilaterally by the 
Department of Energy. Would you give me a sense of whether you 
think the DOE will implement some of these reforms themselves 
or not? And if so, which ones?
    Mr. Dabbar. Thank you, Chairman Smith. No, absolutely. I 
reviewed that bill, have a summary of it in front of me, and we 
certainly support the points that were raised, and we look 
forward to working with you on those specifics if you want to 
reintroduce it here and would be glad to work with your staff 
on that. But in general, we support the points that you raised 
around management of the labs and the direction there.
    Chairman Smith. And you do think you'll be able to 
implement some provisions of the bill yourself then?
    Mr. Dabbar. Yes. We actually have quite a bit of 
flexibility I think on----
    Chairman Smith. Okay.
    Mr. Dabbar. --operational aspects that were raised and look 
forward to doing that, and we have done that on some--on many 
of those points.
    Chairman Smith. Okay. Thank you. And, Secretary Menezes, 
you mentioned in your testimony that DOE has a policy of 
American energy dominance. Give us a little bit more in the way 
of detail as to how you hope to achieve that and maybe even 
what it means.
    Mr. Menezes. Well, thank you for the question. Within 
energy dominance, what we mean by that is that we are able to 
utilize our vast resources in ways to help other countries to 
have access to energy that they otherwise might be getting from 
countries that not necessarily share their best interests.
    So, with the work of the labs, we're able to develop 
technology improvements in the hydraulic fracturing, for 
example, so now we're the world's largest producer of oil and 
natural gas. Since we have as much as we have, we can now 
develop policies to export those energies, and it helps our 
allies not to be dependent on other countries for sources of 
energy. So in that context, I mean, we have a new historical 
geopolitical reality where the United States can actually be 
the country that other countries go to for energy.
    Chairman Smith. And when you talk about other countries 
coming to us for energy, what countries do you see as 
increasing their demand for U.S. supplied energy?
    Mr. Menezes. Well, we see it really across the globe, so, 
for example, on LNG export facilities, for example----
    Chairman Smith. Right.
    Mr. Menezes. --you see countries in Asia, you see countries 
in Europe, you see countries in South America potentially that 
would like to have us export LNG to them. In coal you have 
countries in central Europe that have been receiving some of 
our coal exports, and then oil, Congress lifted the ban on 
export of oil, and as such now, we can export into the global 
markets of oil.
    Chairman Smith. Okay. Good. If I have time, I'm going to 
come back to that subject, but another question for Secretary 
Dabbar, and it is this: that over the years there has been some 
pretty strong and steady support for the fusion basic research 
program, and yet in the proposed budget, that program is 
subjected to some cuts. And I just wondered if you could 
explain to us why a program that has gotten such good support 
in the past and I think can be justified has been cut?
    Mr. Dabbar. Thank you, Chairman Smith. I can't comment to 
the specifics of the last budget proposal, but the fusion 
energy area and program office in the Department--Office of 
Science is very important. We have a lot of support across 
multiple labs. Obviously, we do--one of the main labs is 
Princeton Plasma, and we continue to fund that as a primary 
focus both of fusion but also plasma science. We also do quite 
a bit of work at Oak Ridge and also at Livermore on the laser 
side.
    Obviously, we have been doing some funding over time at 
ITER, which is a separate topic internationally, but we do 
continue to focus on that as one of the main program offices.
    Chairman Smith. So you think our research is going to 
continue. What about our international obligations?
    Mr. Dabbar. So our main international obligation is 
obviously ITER. The last budget proposal was zero. I think, as 
you probably know, ITER has had some challenges in the past 
where the initial proposal for the whole of the program from 
all the countries was a little over $6 billion, and now it's 
currently up to $65 billion, so it's moved quite a bit in terms 
of project costs.
    We--the Administration is reviewing that as part of an 
overall nuclear review policy----
    Chairman Smith. Okay.
    Mr. Dabbar. --and we have yet to reach a conclusion on a 
cross-department basis on exactly our intent around funding and 
recommendations around funding----
    Chairman Smith. Okay.
    Mr. Dabbar. --so that is ongoing and is an active part of--
--
    Chairman Smith. Okay.
    Mr. Dabbar. --what I'm engaged with.
    Chairman Smith. Thank you, Mr. Dabbar.
    And the gentleman from Texas, Mr. Veasey, is recognized for 
his questions.
    Mr. Veasey. Thank you, Mr. Chairman.
    I want to talk with you about some of these unjustified 
budget cuts. The President's budget request declared some 
research as early stage and therefore worthy of federal support 
and other activities as later-stage research that should be 
immediately eliminated, given that the private sector is 
supposedly better equipped to carry them out. However, during a 
briefing to Congressional staff, Administration officials 
confirmed that they did not engage with the private sector at 
all while compiling the fiscal year 2018 budget request to 
determine what industry would or would not be able to pick up.
    Given that there was a complete absence of engagement with 
industry, even as the Administration made these proposed 
massive sweeping cuts to these programs, how in the world did 
you determine what DOE should or should not support across 
these program offices? And I would like to hear from either one 
of you on this.
    Mr. Menezes. Well, I can't speak to the budget process, not 
having been involved in it. I can tell you that, as just a 
matter of course, our program officers and our labs regularly 
engage in conversations, collaboration efforts with the private 
sector. Indeed, most of our funding opportunities come out of 
those discussions and collaborations and conferences, and it's 
an ongoing and constant thing. And that's the first--if you're 
not aware of it, it's one of the first things you learn when 
you get over at the Department how deeply involved they are 
with the latest technologies, whether it's in the labs, whether 
it's in the program offices, whether it's in private industry 
and whether it's in the universities in peer research. And it's 
a great process to see.
    So while I can't speak to the budget as a practical matter, 
we want to assure you that it is an ongoing enterprise. It also 
helps to inform our priorities going forward in the next round 
of budget discussions. Now that we're on board, we can help now 
more fully inform decisions during the budget process.
    Mr. Veasey. Okay. So, I mean, let me ask you. Are the 
proposed cuts research areas that private sector is willing to 
simply start funding after the federal government cuts them, or 
are we going to risk losing our innovative companies and 
researchers to our foreign competitors?
    Mr. Menezes. Well, I think the way that we look at it is 
that the private sector can manage risk. They are aware of 
technological advancements in certain areas, particularly in 
their areas of expertise. They manage risk. They make 
investments to bring to market those technologies that they 
know will help the industry as they assess it.
    Mr. Veasey. Well, do you expect them to pick up the 
shortfall?
    Mr. Menezes. Well, in those areas where, through the work 
of this department brought things to commercialization and 
deployment, we would expect the private sector to pick that up. 
However, where the research is too risky and private sector is 
not willing to invest the substantial monies that it takes to 
see if you can either make a basic discovery or take it to the 
next step, that's where the Department will step in.
    Mr. Veasey. Okay. And also I wanted to ask you, Mr. Dabbar. 
You just said in a response to a good question from the 
Chairman that the Administration request for ITER was zero but 
the President's fiscal year 2018 request for ITER was actually 
$63 million, an increase over the appropriated level in fiscal 
year 2017 of $50 million. Did you perhaps misspeak or were you 
indicating that the Department will request no funds in fiscal 
year 2019?
    Mr. Dabbar. I believe that the last proposal for last year, 
which was '18, was zero. I may be not correct. But I think the 
debate is certainly about our funding going forward.
    Mr. Veasey. Okay. And also, Mr. Chairman--and I'm running 
out of time here. I wanted to ask about the Texas Clean Energy 
Project, but we'll get back to that a little bit later. Thank 
you. I yield back the balance of my time.
    Mr. Weber. [Presiding] All right. The gentleman yields 
back. I'm going to go ahead and recognize the gentleman from 
California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank both of you for coming to brief us today.
    Mr. Dabbar, you mentioned in your opening statement the 
progress that's been made on battery technology. Let's just 
note that with the development and the actual deploying of more 
efficient batteries, then the--all of this solar energy and 
the--all this technology we've developed with wind, et cetera, 
actually becomes doable. Some of our hesitation on this side of 
the aisle has not been just based on that we don't think global 
warming is important but that the technology really wasn't 
there.
    When do we expect to see these batteries on the market, and 
do you know of Dr. Goodenough and his--who was the inventor of 
the lithium battery and his breakthroughs down at University of 
Austin Texas on a sodium-based battery?
    Mr. Dabbar. Thank you, Congressman. So I completely agree 
with you.
    Mr. Weber. Your mic is either not on or not close enough.
    Mr. Dabbar. Yes. Thank you. Thank you very much for that 
question. No, clearly, I think of all the technologies that 
certainly crosscut not only between the program offices that 
both report to the two of us but across multiple labs is 
clearly a focus of what we're working on. And the intermittent 
nature of wind and solar and some other technologies, really 
the gap to be filled for all those is in the battery and 
storage area.
    Mr. Rohrabacher. Do we have any of those new battery 
technologies actually on the market now?
    Mr. Dabbar. So we are working--and this goes back to a 
previous question. We have over 85 companies that we're working 
with in the battery sector across our various different labs, 
and whether it's flow batteries, multivalent batteries, we are 
actively moving those forward into market.
    Mr. Rohrabacher. They are commercialized? So someone 
could--if someone wanted to develop it for solar power could 
actually now go to one of those batteries?
    Mr. Dabbar. So they are commercializing so----
    Mr. Rohrabacher. Commercializing.
    Mr. Dabbar. --so obviously in many of our areas, I think as 
Under Secretary Menezes mentioned----
    Mr. Rohrabacher. And--well, let me just note that one of 
the things that have been frustrating for me on this committee 
over the years is the fact that things do get studied and 
studied and studied to death, and it's almost like somebody 
wants to continue their research project in order to get a 
government grant in order to have another years paying on--off 
their bills. That's--I think that's a problem that we've got to 
look at that commercialization is just as important as 
discovery.
    Now, ten years ago in April of 2008 this committee had a 
hearing on opportunities and challenges of nuclear power. And 
at that time we were told that the next generation of nuclear 
power was a promising option for the future, just as we just 
heard about batteries as well, but not yet ready for commercial 
development. Well, that was ten years ago, and we haven't seen 
any design certified by the NRC since then when they need to 
have at least their fuel performance and fuel characterizations 
of standards, materials, et cetera, et cetera, if anybody's 
going to move forward with it.
    And in fact--but we go--when you go to the companies and 
they say, ``Well, we can't really build a prototype until the 
NRC has approved these various elements. And then you go to the 
NRC and they say, ``Well, we're looking at designs that have 
been built in tested through prototypes. You know, it's like 
the chicken versus--what comes first, the chicken or the egg?
    I would hope that this Administration with its can-do 
approach, with its ``America First,'' ba, ba, which we're all 
rooting for, I hope that we get a prototype and start focusing 
on actually building an energy prototype for this new next 
generation of nuclear power, which we know can be safe and can 
actually--without waste left over, without materials for bombs 
left over. We can build that. We could have built it in the 
last ten years, but we haven't done anything because--and this 
is where it's in your lap now. Let's make sure we structure the 
whole program aimed at building the prototypes and getting them 
commercialized rather than just reporting to us how great the 
research is coming along. And please comment on that.
    Mr. Menezes. Do you want me to answer----
    Mr. Dabbar. Well, I'll go ahead and comment on batteries 
and then defer to you----
    Mr. Menezes. Okay. I'll comment----
    Mr. Dabbar. --on the new commercial nuclear. But as an 
example of companies that are working with our battery team 
right now, United Technologies, Johnson Controls, Dow, General 
Motors, and A.D. Moore that are actively working with our 
batteries, so I think what we're working on in terms of 
commercializing, these are real companies who want to make real 
money who are taking our technologies and are moving them 
forward. So I feel very positive about that. And going out and 
seeing the labs and actually sitting down with them at the 
companies--and that's what we do, obviously, when we go to our 
labs. We see that.
    Mr. Rohrabacher. And about the nuclear----
    Mr. Menezes. So on the small modular reactor, for example, 
at INL----
    Mr. Rohrabacher. Yes.
    Mr. Menezes. --on my last trip, they are exploring 
opportunities to actually site and build a small modular 
reactor there near the lab. The combined operating license 
needs to get through the NRC, so that will take a process of--
--
    Mr. Rohrabacher. This has been going on--this has been 
going on for at least ten years, probably 20 years, but ten 
years we could've done this ten years ago. So I would hope, as 
I say, that you take this to heart and structure your operation 
at the Department of Energy in a way that we're going to be 
getting a prototype built so that it can then move forward from 
there because it's been stuck here for ten years, and it's a 
real crime.
    The fact is that San Onofre is near my district. It's shut 
down. The light water reactors are old and they're dangerous. 
And San Onofre's shut down, and guess what, we have to spend 
$70 million a year just watching that leftover uranium or 
whatever it is, fuel from the plant there. We could use that, I 
understand, in these new modular reactors as fuel for the new 
ones and actually eat it up, the waste that now it's costing us 
just to look at.
    So I would hope that next time we meet and next time we 
have this hearing, you can report to me some real progress 
towards the prototype there and maybe how some companies have 
actually commercialized those batteries. Thank you.
    Mr. Weber. I thank you for yielding back.
    The gentleman from Virginia, Mr. Beyer, is recognized.
    Mr. Beyer. Thank you, Mr. Chairman, very much.
    I'd like to talk some about the structural issues that are 
going on at the Department of Energy. We've heard some concerns 
today about how the restructuring of the Department's 
leadership could be detrimental to the coordination and 
management of the civilian science and technology programs. Mr. 
Menezes' testimony states, quote, ``The modernization effort 
returned the Department to its original statutory framework 
with three separate Under Secretaries,'' end quote.
    And I don't believe that's true for multiple reasons. 
First, the original statutory framework in the Department of 
Energy Organization Act in 1977 established only one Secretary 
not three, or perhaps more importantly, you imply with your 
testimony that the structure under Dr. Moniz was violating 
statute by not conforming to the required number of Under 
Secretaries, which I also believe is not the case.
    Let me read some excerpts from the Department of Energy 
Organization Act, as amended, by the Energy Policy Act of 2005, 
which particularly relates to the establishment of the Under 
Secretary positions that you hold. Quote, ``There shall be in 
the Department an Under Secretary for Science. The Under 
Secretary over Science shall, among other things,'' and again, 
I'm quoting, ``monitor research and development programs at the 
Department, advise the Secretary with respect to grants and 
other forms of financial assistance required for effective 
short- and long-term basic and applied research activities of 
the Department, supervision or support of research activities 
carried out by any of the Assistant Secretaries designated by 
section 203 of this act.''
    So I'd like to note that the Assistant Secretary, as 
outlined in section 203, include all the energy technology 
programs now under the authority of Mr. Menezes rather than the 
Under Secretary for Science, Mr. Dabbar. So in the Department's 
rationalization of this unwarranted organizational change, you 
claim, quote, that it is, quote, ``consistent with Dewey's 
statutory mandate.'' Instead, it actually appears to move the 
Department further away from the statutory mandate. I'm 
inclined to think that Secretary Moniz was much closer to the 
intent of the law than what the Department is doing now.
    So, Mr. Dabbar, a specific question: Can you explain why 
duties that are assigned specifically in statute to the Under 
Secretary over Science are now under the authority of the Under 
Secretary of Energy? And how do you both claim that this is 
consistent with Dewey's statutory mandate when it moves us 
farther from what the statute says?
    Mr. Dabbar. Thank you, Congressman Beyer. On some of the 
statutory very specific language I might defer that to the 
gentleman to my left who actually helped write some of that 
language when he was on committee for that. But in terms of the 
specific responsibilities, the specific responsibilities around 
being the Chief Technology Officer and science officer across 
the whole other complex is mine as part of the statutory 
obligations. And there's many different ways that that is 
actually practically being done. I'd like to talk about the 
practical aspects of what we're actually doing.
    First of all, in terms of coordination across the 
technology platforms in terms of commercialization, which is a 
much longer topic, the Office of Technology Transitions reports 
to me, and that particular function in which it is coordinating 
across the whole of the complex--by the way, not just Secretary 
Menezes area but also in dealing with what's also outside of 
his area, which includes NNSA labs and it also includes ARPA-E. 
And so----
    Mr. Beyer. If you--forgive me for interrupting you. I 
appreciate all that, and I appreciate the overall perspective 
that you have----
    Mr. Dabbar. Yes.
    Mr. Beyer. --but is there any way to justify or rationalize 
how Assistant Secretary specifically assigned by law to you now 
report to a different Under Secretary, Mr.--Dr. Menezes. Mr. 
Menezes, perhaps you could deal with that? In fact, let me 
expand on that. Your position, which simply named Under 
Secretary in the U.S. Code, not Under Secretary for anything, 
does not have well-defined statutory responsibilities but 
rather it's the broad discretion of the Secretary. Did the 
Secretary consider the explicit direction in the statute 
defining the Under Secretary for Science's role when 
establishing your duties? And also if you can fill us in on 
what I asked Dr. Dabbar--Mr. Dabbar?
    Mr. Menezes. Sure. Thank you for the question. Regarding 
the statutes, so what we did was as we reviewed all of our 
statutory authorities, our organizational act, and our various 
authorities, and we reverted to what we think was the intent of 
Congress. And that is--and let me just say that before 
Secretary Moniz, there was always an Under Secretary for the 
Department which over time became called the Under Secretary of 
Energy. And in 19--and the reason for that change was because 
in 2005 this committee during the Energy Policy Act of 2005, 
has suggested that the Office of Science should have its own 
Under Secretary. And this was a bipartisan effort. And so the 
Office of Science for the first time was going to have its own 
Under Secretary. So that joined the traditional Under for the 
Department, which Congress did not change. And they did not 
change that there was an Under Secretary for NNSA. So by 2005 
you had three Unders essentially.
    And in the Office of Science it was important, and it was 
bipartisan support, to make sure that the Office of Science had 
its own leader essentially. In the energy--I mean, the Energy 
Committee, everybody went along with that. We really did think 
that. But Congress at that time I don't think I ever even 
envisioned that the energy components of the Department would 
be under an Under for Science because we wanted to make sure 
that Science had its own structure.
    The labs that you mentioned, these are applied labs that 
traditionally have been located, if you will, within the 
program offices within the energy program offices, so it's not 
that they report to me as much as they are in the program--our 
works with the program that reports. So we collaborate with the 
applied labs, collaborate with the science labs, and we are 
consistent with the statute. That's what we've done, no more, 
no less, but we wanted to separate out actually the energy 
program offices from the Under of Science because we wanted to 
make sure the Under of Science could focus on science, which 
was the intent of this Committee when the provision was put in 
2005.
    So we actually thought it was a good thing. I mean, we're 
just following the statute as it's written. I know you may have 
a different view, but based on my experience with the other 
committees and the intent of Congress at the time----
    Mr. Beyer. Mr. Menezes----
    Mr. Menezes. --we wanted to elevate Secretary of Science--
or the Office of Science.
    Mr. Beyer. Let me yield back to the Chairman before----
    Mr. Weber. Yes, I think the gentleman's time is expired. 
He's probably gotten an answer. I'm not sure it's the one he 
wanted, but he got an answer. We appreciate that.
    I'm going to recognize myself now for five minutes. So let 
me start back with you, Mr. Menezes. That's how you pronounce 
that, is that correct?
    Mr. Menezes. That's correct.
    Mr. Weber. Okay.
    Mr. Menezes. Good enough.
    Mr. Weber. Sir?
    Mr. Menezes. Menezes, that's correct.
    Mr. Weber. Menezes?
    Mr. Menezes. Yes, sir.
    Mr. Weber. Good. I can do this. The President's fiscal year 
2018 budget includes $10 million to begin planning for a fast 
neutron research reactor that would operate as a user facility 
within the Office of Nuclear Energy. Now, the gentleman from 
California, Mr. Rohrabacher, was here and he talked some about 
the small modular reactor that's taking so much time. This 
committee has authorized--advanced several bipartisan bills to 
authorize this user facility--a.k.a., the Versatile Neutron 
Source--and prioritize early-stage research in advanced nuclear 
energy technology. And we would love to see the DOE married up 
with the NRC and that chicken-or-the-egg question might go away 
where they would be able to--the NRC would be able to actually 
weigh in on the design as it's coming along and then we 
wouldn't be worried about getting a prototype.
    Nonetheless, last Congress, my bill, with the Chairman's 
help, the Nuclear Energy Innovation Capabilities Act, passed 
the House three times and has already passed the House as a 
part of Chairman Smith's comprehensive legislation, which is 
H.R. 589.
    Most recently, the Committee advanced my bill, H.R. 4378, 
the Nuclear Energy Research Infrastructure Act, to authorize 
funding to complete this project that I'm talking about. The 
House-passed energy and water appropriations bill also devotes 
$35 million to kickstart this project. Based on my extensive 
conversation with stakeholders, I think it's critical that we 
start construction on this user facility as soon as possible or 
American companies you referred to that were able to manage 
risk and able to be in the best position to be the global 
leader of energy, those American companies will be forced to 
conduct research for advanced reactor technologies overseas. We 
don't want that.
    So will you commit to work with me to ensure that this 
project is a top priority for the Trump Administration?
    Mr. Menezes. Yes, sir.
    Mr. Weber. That's easy enough. So in--so we may have to 
borrow the money from you, but I'm glad you're so amiable. In 
my bill, it sets a target to complete construction on the 
Versatile Neutron Source by 2025. In your opinion, for us to be 
able to hit that target, what resources are required to start 
and complete the construction of this project so that we don't 
wind up with the problem we had with the small modular reactor? 
What do we need?
    Mr. Menezes. Well, having just returned from INL where I 
saw the advanced test reactor that has celebrated its 50th 
year, it continues to be the leading reactor that businesses in 
other countries come to test new fuels and materials. It is a 
thing to behold. They are very excited about the prospects of 
Congress taking action on your bill, and should Congress find 
the resources, I think that the scientists there would look 
forward to implementing the provisions of it.
    As we've heard from other Members, part of the process 
involves a regulatory review of many nuclear facilities for 
health and safety at the NRC, so we would have to work with our 
sister agencies to ensure that there would be sufficient 
processes and resources available for both to work toward 
accomplishing the goals in your bill.
    Mr. Weber. Has the Secretary--has Secretary Perry been 
briefed on the bill? Is he aware of it?
    Mr. Menezes. I'm not aware if he has been briefed 
specifically on the bill. I know he has been briefed certainly 
on the nuclear issues and the priorities of the Administration.
    Mr. Weber. Okay. In this committee--well, let me--I've got 
less than a minute left. So in your opinion, how does this 
Administration--this is a question for both of you--define 
early-stage research?
    Mr. Dabbar. Thank you, Mr. Chairman. In terms of early-
stage research, it's clearly focusing on the areas in which the 
commercial sector is not spending--is not focused on the R&D 
side in which it is not near the commercialized area in terms 
of any particular technology.
    Mr. Weber. Let me break in here because, Mr. Menezes, you 
made the common earlier that you wanted to ensure funding went 
to the most promising research. Well, how do you know which is 
the most promising research unless you get in that early-stage? 
Continue, please.
    Mr. Menezes. Yes--no, I'm glad to continue. So if you--
basically, it's going program office by program office and 
identifying where in particular the commercial sector is and 
where do we fit. I'll give an example. On high-performance 
computing it's quite easy. We know exactly where Intel is and 
AMD and Micron and IBM are at in terms of computing on the 
commercial side. We know exactly where we are at, which is at 
the cutting edge. We have dialogue with our potential 
suppliers--once again, Intel, IBM, Nvidia--about what we think 
is capable in terms of pushing the technology since we're at 
the front end way beyond the commercial sector in those 
particular areas. And then we decide where we want to recommend 
for appropriations and for us as a program office.
    So I could go through one by one, but that's--I can think a 
very clear example of where we interacted know where the 
commercial sector is versus what we recommend what to do.
    Mr. Weber. All right. And I'll jump over to you, Mr. 
Menezes.
    Mr. Menezes. Right. So in the solar world, for example, I 
actually brought this neat chart from NREL. So this shows 
existing technologies and efficiency levels and how long 
they've been in play and commercially available. Here, you see 
breakthrough technology that is taking place at our labs that 
show an exponentially--if I can use that word correctly--
increase on efficiency. It's not commercially available yet.
    Now, what's the relevance of this? I mean, the relevance is 
that all--these are solar panels that have been in the market, 
and they have been used. This potentially is breakthrough 
technology. There won't even be solar panels anymore to give 
you an idea. So you have both breakthrough and you have 
approaching commercialization. So if you wanted to focus in the 
world of solar, I think that this, and the work that INL is--
NREL, excuse me, is doing is a good example.
    Mr. Weber. That's a great chart, and I'm looking at it from 
a distance here. The span left to right--and how many years 
does that cover?
    Mr. Menezes. This goes from 1975 to 2020.
    Mr. Weber. Okay. Thank you. I appreciate that. I'm going to 
yield back and recognize Mr. Tonko at this time.
    Mr. Tonko. Thank you, Mr. Chair, and thank you to our 
witnesses for being here.
    I completely agree that the national labs are the crown 
jewels of America's research community. They are indeed 
responsible for major breakthroughs in science and energy 
innovation and national security. As I mentioned, when you had 
testified at the Energy and Commerce Committee, I saw this 
firsthand when I visited Brookhaven last year. Brookhaven is 
leading us into the future using fundamental science that would 
change our understanding of the world around us and of our 
universe.
    From the Center for Functional nanomaterials to the 
National Synchrotron Light Source to the big ring collider the 
only large particle collider in North America, one of two in 
the world, I am in awe of the scientists and work being done 
there, drawing on their passion and expertise, coupled with 
adequate funding we can ensure our nation continues to be a 
world leader in scientific research and development.
    The Administration has proposed eliminating Brookhaven's 
Center for Functional Nanomaterials, a profoundly misguided 
effort. CFN is the newest of the five centers in the country, 
which means it has the newest and some of the best in the world 
equipment. It is located right next to Brookhaven's light 
source, so housing it at Brookhaven is intuitive.
    There are more than 500 users who depend on the center. 
During my latest visit, I was impressed with the scale of the 
machines. I'm curious if there have been further conversation 
on its--CFN's future. Have you been part of discussions or are 
you aware if the funding will be provided for this critical 
effort at CFN of advancing the science of nanomaterials that 
address the nation's energy challenges?
    Mr. Dabbar. Thank you, Congressman Tonko.
    So the budget is obviously still being finalized, but let 
me actually echo what you just said in terms of specifics in 
terms of the Nanomaterials Center at Brookhaven. I completely 
agree with you that if you look at what they produce, it's 
truly cutting-edge. Let me give you two examples. One of the 
things that they've done is to have a prototype of black glass 
for increased absorption of photons potentially for use in 
advanced solar panels. They've actually produced a material, a 
glass, that could increase the absorption rate by 100 percent--
--
    Mr. Tonko. Which I might cut in is absolutely essential.
    Mr. Dabbar. Yes.
    Mr. Tonko. I mean, I did witness that whole project with 
the black glass----
    Mr. Dabbar. Yes.
    Mr. Tonko. --and it should be important to our country in 
regard to effectiveness of our renewables. And if this 
Administration isn't behind renewables, can we be certain that 
you will, with passion, push for investments in this 
technology?
    Mr. Dabbar. I can commit to you that I am passionate about 
what is being accomplished in the area of nanoscience and 
materials at Brookhaven, and I will continue to be so.
    Mr. Tonko. Okay. And it's my understanding that the 
Administration has proposed eliminating Brookhaven's Center for 
Functional Nanomaterials. CFN is the newest of the five centers 
in the country, which means it has the newest and some of the 
best equipment in the world. It is next to Brookhaven's light 
source, so housing it at Brookhaven is important. There are 
well over 500 users who depend on the center. When I visited, I 
was extremely impressed with the scale of the machines, and I'm 
curious if there have been further conversations on that 
future. Have you been part of discussions or are you aware if 
the funding will be provided for this critical research?
    Because it--when we look at the vast majority of 
Brookhaven's funding coming from the DOE Office of Science, 
which the President's last budget request proposed cutting by 
17 percent, Brookhaven also receives funding from EERE and 
other critical sources that the Administration has proposed 
slashing. Without adequate funding, we will slow down and in 
some cases completely halt the progress that Brookhaven and our 
national labs could accomplish. How important is adequate 
funding and the commitment of continued investment for our 
national labs to fulfill their potential? And what would be the 
consequences of that type of cut?
    Mr. Dabbar. Congressman Tonko, thank you very much. I have 
not--back to your question that you posed, I have not been 
involved in any debates about particularly the center and 
funding for the nano center. But once again, there is 
tremendous data so to speak in terms of products and 
technologies that that particular center is producing, and I am 
an advocate and I will continue to be an advocate of what we've 
been able to accomplish there.
    Mr. Tonko. Well, in addition to their almost 3,000 full-
time employees, Brookhaven supports scientists across the 
country who are visiting scientists or facility users. On top 
of that, hundreds of students are learning and conducting 
research there. I believe it's clear that the U.S. research 
community depends on our labs. If funding is reduced, it would 
be a big blow, and these opportunities decrease. Might this 
hurt the development of our next generation of scientists and 
engineers? Either of you, does it diminish the opportunities or 
the growth for the next generation of scientists and engineers?
    Mr. Dabbar. You know, what I would say is that obviously 
the Department of Energy is the primary funder across the board 
in terms of research both at the university level and across 
the spectrum, I think as you know. About $3.1 billion a year is 
part of the DOE budget for FOAs and for grants, including 
universities all across the country, and that's going to be a 
continued focus obviously for the Department.
    Mr. Tonko. Well, I've exhausted my time, and I yield back, 
but I can only say we need you to push really hard for the 
appropriate level of funding if we're going to continue forward 
with a bit of progress.
    Mr. Weber. The gentleman yields back.
    The gentleman from Illinois is recognized.
    Mr. Hultgren. Thank you both for being here. I appreciate 
your work. I appreciate your expertise that you bring to the 
jobs that you--the important roles that you fill. And these are 
really important subjects that we're talking about today, so 
thank you so much again for being here. Mr. Dabbar, it was 
great to be with you in November at Fermilab, grateful for 
one--for the visits I think you made after your confirmation 
was there to Fermilab, and it was great to be with you. I 
really enjoyed it, but I also know everybody in Fermilab was 
really pleased and impressed with your visit, so I just want to 
say thank you so much for taking that time to be there and to 
see some of the amazing things that they're doing.
    I also want to thank the Administration for continued 
commitment to the Long-Baseline Neutrino Facility and the 
accompanying Deep Underground Neutrino Experiment that you 
mentioned in your opening remarks, your statement. It was 
reassuring for the international community as well and the 
people working in my district to hear from the Secretary and 
OSTP at the groundbreaking of the Farr site in South Dakota 
last year as well.
    One question I have as the process continues is regarding 
the PIP-II upgrades for the beamline. While a separate project 
from LBNF DUNE, this upgrade is necessary for the success of 
LBNF DUNE and has already garnered international support, 
again, as you mentioned, for about 20 percent of the project 
with India alone investing $200 million. Giving America the 
world's strongest neutrino beam is essential for the United 
States to become the single place in the world where scientists 
will come--must come--to do this work.
    I wondered, Mr. Dabbar, if I could ask for your commitment 
to assess the status of PIP-II and, if possible, to help move 
this project forward through DOE's review process and provide 
the necessary funds to keep this project on track?
    Mr. Dabbar. Yes, Congressman Hultgren. I'm very much in 
support of continuing to review that. Obviously, as you pointed 
out, there's been great international cooperation. I think if 
you kind of compare that to our version of CERN----
    Mr. Hultgren. Yes.
    Mr. Dabbar. --in terms of being able to draw on support and 
draw on science. It's actually big focus of mine is take what 
the Fermi team has done in terms of how to build an 
international consortium to pull investment into the United 
States based upon our knowledge, based upon the knowledge 
that's at Fermi laboratory and actually what I want to try to 
do is not only execute on what we're doing, pull in some 
additional funds, which both myself and the Secretary and the 
Deputy are actively engaged in diplomatic aspects of other 
countries to do that. But we actually want to take the skill 
sets that the team----
    Mr. Hultgren. Right.
    Mr. Dabbar. --that pulled together at Fermi to try to look 
at other potential user facilities in the future to use that as 
a model.
    Mr. Hultgren. That's fantastic. And I think the best story 
out of that certainly is great work done to pull it together, 
but even as you and I talked about there, the challenge that we 
have to do to keep that going and growing is to make sure we're 
doing our part as well, and so that's our commitment and--is 
Congress working with the Administration to make sure that 
funding is there, that we're able to follow through on these 
important projects that are garnering this amazing world 
attention, but more than just attention, investment that is 
really exciting.
    If I could address to both of you in just the remaining 
minute-and-a-half that I have, the House has passed legislation 
that I've sponsored the last two Congresses unanimously to 
modernize and streamline the technology transfer process from 
the labs, again, something that you mentioned. One of the 
Administration's key priorities has been removing regulations 
that are impeding the private sector from bringing new ideas 
and businesses to the market.
    A provision of my legislation, which the prior 
Administration opposed, allowed for laboratory directors to 
have signature authority on tech transfer agreements below $1 
million. While I respect the site offices and their need for 
DOE oversight of our labs, unfortunately, the time it takes to 
do many of these small agreements means that small businesses 
and other partners were unable to work with our labs. I 
wondered if this is a proposal you'd be willing to take a look 
at, and we feel like this is in line with commonsense 
deregulatory approach that the President has tasked agencies to 
implement.
    So, again, I wondered if you might be willing to take a 
look at this, again, empowering for some of these still 
significant but lower-cost projects to allow site directors to 
be able to move forward?
    Mr. Dabbar. Yes, I----
    Mr. Hultgren. Or lab directors.
    Mr. Dabbar. I've reviewed H.R. 1158 and certainly looked at 
a lot of those particular provisions. I certainly understand 
the point about the signatory authority. I'm certainly open to 
discussing that. I've not gone through that particular point in 
detail, but we have focused a significant amount on reducing 
the amount of legal effort and Administration effort around 
CRADAS, around work for others, and as you probably know, we 
actually took the act program which is another version which 
allows greater flexibility on legal points around contractors 
to enter into new agreements. We made that permanent.
    So we generally agree with everything that you've laid out 
in H.R. 1158, and I'm certainly open to talking with that 
particular line item point further.
    Mr. Hultgren. Great. Well, again, thank you all--thank you 
both so much.
    Mr. Menezes. Did you want me to add anything on that? I was 
just--except for my----
    Mr. Hultgren. Quickly. Maybe just--I'm sorry, my time----
    Mr. Menezes. --private sector experience----
    Mr. Hultgren. --is expired but----
    Mr. Menezes. --the act model seems to reflect a lot about 
what goes out there in the private industry on risk 
assessment----
    Mr. Hultgren. Right.
    Mr. Menezes. --management----
    Mr. Hultgren. Yes.
    Mr. Menezes. --funding.
    Mr. Hultgren. That's right. Thank you. Thanks, Chairman. I 
yield back.
    Mr. Weber. At least he didn't say anything negative about 
your bill, so that was good.
    The Chair now recognizes the gentleman from California, Mr. 
McNerney.
    Mr. McNerney. I thank the Chairman. I thank the witnesses.
    Say, the terms early-stage research and late-stage research 
seem to be used in a cavalier fashion in the budget as a 
rationale to cut some programs and fund others. Can either one 
of you define what early-stage research is and what late-stage 
research is?
    Mr. Dabbar. I'll certainly start. In terms of early-stage 
research, once again, it depends on the program office, but it 
is specifically identifying where the commercial industry is 
not at and where we think that something in terms of an area of 
science or an area in technology that, if capital was employed, 
that we can move forward to balance, and whether that's high-
performance computing, which is one topic, or in particle 
physics or in imaging, that's in general how we would define 
what's early-stage.
    What's late-stage is something that is very close to the 
point in which the commercial sector sees financial viability 
to make a profit in a particular product. And just to 
summarize, we're very much engaged with industry product by 
product to know exactly where, you know, the point is to debate 
and move as technology moves.
    Mr. McNerney. Well, how about just defining late-stage as 
when the private sector is willing to fully fund the research?
    Mr. Dabbar. That's certainly one definition. You know, you 
can actually debate whether it's 100 percent or if there's 
other funding mechanisms that help push it over the edge, but 
yes, approximately, I do agree with that.
    Mr. Menezes. Well, if I might add on that, for example, 
when Congress passed the Loan Guarantee Program, it--back in 
2005, they focused on emerging technologies and of course the 
technology to reduce emissions. That was a loan guarantee, so 
it was technologies that were sufficient to attempt to 
commercialize, but the private sector couldn't quite, you know, 
fund it. These were high capital expense projects. And so that 
was--back then, Congress sort of sought to identify 
opportunities there to bring the government loan guarantee 
program to bear--
    Mr. McNerney. Okay. Thank you.
    Mr. Menezes. --back in 05.
    Mr. McNerney. Mr. Dabbar, over the past few years, several 
promising alternative approaches to achieving a viable fusion 
reactor have emerged from small and medium-sized startups, as 
well as academia and our national labs. What is the Department 
doing to ensure that the full range of viable options to 
achieve commercial fusion is sufficiently vetted and, where 
appropriate, well-funded?
    Mr. Dabbar. Thank you very much. Before I was lucky enough 
to be in this position, I actually have had experience in 
trying to commercialize fusion and worked with a number of the 
different entities, so I certainly have familiarity and/or 
working with Tri Alpha, with Lockheed, with General Atomics, as 
well as understanding the efforts that were made by the 
Department.
    There's obviously a number of different geometries that 
could be potentially used, and I could say that the fusion area 
is about as opinionated as any in terms of the differences of 
the types of technologies. Certainly, with the funds over to 
recent times we've been focusing on Tokamak, but at some of the 
other technologies, we've actually given access to high-
performance computing from modeling for magnetic fields, so 
even though we don't directly fund, we actually, through high-
performance computing and advance computing, give access to 
modeling capabilities for some of those commercial areas which 
we're very happy to support.
    Mr. McNerney. Thank you. Mr. Dabbar, last year, the 
Committee held a hearing on geoengineering research, and the 
prevailing recommendations from the witnesses at the hearing 
that the National Academies--and the National Academies is that 
there needs to be more fundamental research. Will this 
Administration support geoengineering research that does 
modeling and laboratory testing?
    Mr. Dabbar. I'm not familiar with that particular hearing 
or the witnesses, but I'm certainly open to that particular 
topic. I'm learning more about what was said there and the 
recommendations.
    Mr. McNerney. Thank you.
    How--Mr. Menezes, how do you intend to work with the NRC to 
ensure that the DOE is a helpful partner in licensing nuclear 
reactors?
    Mr. Menezes. Well, we do intend to meet with staff, to meet 
with the current commissioners. In fact, we have met with some 
to ensure that our goals are the same. We have several projects 
that we're interested in. Clearly, we're hopeful that the small 
modular reactor application will be both timely submitted and 
considered. So we are having conversations with them.
    Mr. McNerney. Do you think there's a constructive role that 
ARPA-E could play in advancing environmental management 
mission, Mr. Dabbar?
    Mr. Dabbar. Yes. I think that there's obviously a number of 
different technologies that could be--that could help the 
mission, and certainly, we are taking a look at whether a 
particular FOA topic coming out of ARPA-E could be utilized for 
that.
    Mr. McNerney. Thank you. I yield back.
    Mr. Weber. The gentleman yields back.
    The gentleman from Texas, Dr. Babin, is recognized.
    Mr. Babin. Sir, thank you, Mr. Chairman. I appreciate the 
witnesses for being here.
    Mr. Menezes, the Department of Energy has a long history of 
public-private partnerships in the fossil energy research and 
development program with some notable successes like the Petra 
Nova project in Texas, which was designed to capture over 4,000 
tons of carbon emissions from a coal plant and use those 
emissions to produce 15,000 barrels of Texas oil each day, 
which was a 50-fold increase over the field status quo. But it 
is also had some notable failures as well like the FutureGen 
project where, after 12 years and over $200 million in taxpayer 
dollars spent, DOE was forced to withdraw from the CCS project 
after endless delays.
    It's clear that fossil energy is part of our energy future 
with over 200 years of coal and at least 100 years of natural 
gas reserves in the United States, but it is less clear what 
role the DOE programs should play in developing new fossil 
energy technology. How do you propose to use the Department's 
limited resources to expand the impact of fossil fuel research? 
As Under Secretary, how will you ensure the Department better 
leverages federal resources to advance energy innovation and 
make our vast fossil energy resources cleaner, more reliable, 
more affordable, while creating U.S. jobs?
    Mr. Menezes. Thank you for the question, Congressman. You 
know, regarding fossil energy, the focus has been primarily on 
post-combustion technologies, carbon capture sequestration, 
carbon capture utilization sequestration. We have begun a 
reassessment of uses of fossil energy both pre-combustion, 
during combustion, and then post-combustion, so we have 
expanded the potential opportunities for fossil energy in the 
world of research and development.
    So take coal for example. There may be pre-combustion 
techniques to help minimize emissions. There may be new uses of 
coal never before considered, so we're taking a look at that.
    On natural gas we have seen the successes of the improved 
buffering techniques for hydraulic fracturing. Congress did a 
big part in unleashing natural gas. We see in some of our 
applied labs we're actually looking at refined products to make 
them more efficient in production. So we think we have a full 
array of opportunity to use our resources a little more broadly 
than in the past.
    Mr. Babin. Well, it's amazing because just a few short 
years ago I remember hearing a program--it may have been at the 
Lions Club in--I represent the 36th District in Texas, and we 
had a couple of experts. One of them was from Schlumberger I 
remember talking about peak oil. This was just a few years 
back, and we were done with fossil fuels. And so I think it's 
just ever so important and significant that we use every 
resource that we can to try to make it more efficient.
    And, Mr. Dabbar, do you have anything that you would like 
to add to that at all?
    Mr. Dabbar. You know, I do think that energy technology----
    Mr. Weber. Get your mic on, Mr.--there you go. Thank you.
    Mr. Dabbar. Obviously, the Department, through a number of 
different labs, had impact on that. I think it's--obviously, 
people like George Mitchell and so on were----
    Mr. Babin. That's right.
    Mr. Dabbar. --move things forward, but I think as you 
probably know, Sandia and one of the applied labs at NETL 
actually had impact on the horizontal drilling and hydraulic 
fracturing technologies and computer modeling. And one of the 
major things that helped move along Marcellus Shale development 
was actual funding that came out of one of the labs that 
reports to Under Secretary Menezes. And the actual modeling 
that took place--a lot of the early models that took place came 
out of an NNSA lab at Sandia. So the Department has actually 
been a big supporter of a lot of these developments, and we're 
obviously glad to see that we're not only the number-one oil 
producer in the world, we're the number-one gas producer in the 
world, severally.
    Mr. Babin. Absolutely, and that's good news. Thank you very 
much.
    And I yield back, Mr. Chairman.
    Mr. Weber. Thank you, Doctor.
    And the gentleman from Illinois, Mr. Foster, is recognized.
    Mr. Foster. Thank you, Mr. Chairman. And thank you to our 
witnesses today.
    I'm Congressman Bill Foster. I sometimes introduce myself 
as saying I represent 100 percent of the strategic reserve of 
physicists in the United States Congress, and I serve alongside 
Mr. McNerney, who represents 100 percent of the Ph.D. 
mathematicians in this august body.
    And--but I was recently privileged to spend the day with 
Secretary Perry as he toured the two large DOE laboratories, 
and I was really struck with his genuine enthusiasm, you know, 
for the science they do and his willingness to advocate for the 
science program. So I am encouraged to hear you echo that 
enthusiasm.
    Mr. Dabbar, I was impressed actually by the bipartisan 
support for advanced battery development, so thank you for 
recognizing in your testimony the battery work at Argonne 
National Lab, which I represent, which anchors the nationwide 
JCESR initiative, a multi-laboratory, a multi-university 
collaboration for advanced batteries, which is in fact 
producing prototypes of these--you know, of the technology it's 
developing.
    Thank you also for acknowledging the critical role of 
Argonne's Advanced Photon Source, which is--and presumably its 
upgrade, which I trust you will also support. This is crucial 
to, you know, the continuing development there.
    And finally, Argonne's petascale supercomputing initiative, 
you know, which will be the world leader and should reclaim, 
you know, something in an area where frankly it's under threat 
from China in surpassing it.
    And thanks also for your commitment to complete the 
construction of the LBNF DUNE neutrino initiative at Fermilab 
where--I worked at Fermilab for 23 years before coming to the 
U.S. Congress, and so I got a chance to introduce a lot of my 
old friends to Secretary Perry when we had our tour together.
    And I've also been impressed by the international 
scientific enthusiasm for the neutrino program there and second 
my colleague from Illinois' enthusiasm and his emphasis on 
getting the PIP Proton Intensity Program upgrade through the 
CD-1 progress--program and, you know, milestone and beyond. 
That's crucial.
    Now, the question that I have here is probably the toughest 
one you're going to be facing, which is the question of ITER, 
which is--this is something that was punted to you from the 
last Administration. It has been, you know, back and forth in 
Congress whether or not we should continue with ITER because of 
its well-known cost issues. And in the last fiscal year there 
was a recommendation from the previous Administration that the 
U.S. involvement in ITER be reassessed prior to the fiscal year 
2019 budget, which is, as you mentioned, ongoing. And this 
budget is now due in only a few weeks. And I was wondering, you 
know, is this decision timescale one that you expect to be--you 
know, to be actually held, that you'll have a--you know, a 
recommendation on whether to proceed with ITER----
    Mr. Dabbar. Yes.
    Mr. Foster. --by the time of----
    Mr. Dabbar. Yes. Yes. So thank you, sir. So I think as you 
know, in '18 back to the previous comment--so we'd ask the 
proposal--I was not here but in terms of the handover--and it 
is a challenge. I admit I think it's a challenge for everyone 
here that the last cash proposal was zero, and we were asking 
for in kind of 63. And the Senate mark was zero, and the House 
mark was 125. And so there's a big spread on this particular 
topic.
    On top of this, as someone who's highly focused on project 
management, both in environmental management and science, I 
think as you know the Office of Science has done in general a 
wonderful job on project management, and the ITER project has 
had some challenges. They have improved. And all these are data 
points that are out there.
    Another thing that we're obviously considering I think as 
you know that when you do a CD-0 and you look at what the 
science is supposed to move forward on, this is a project which 
is also taking a very long time and you start thinking about 
the science and whether what are we going to learn from the 
practical applied side versus the science side and the lithium 
blanket and tritium production versus what we're going to learn 
on confinement and plasma sides.
    We are actively engaged, and I think it's going to take a 
little bit more time than the budget rollout in terms of all 
the debates. This is a very serious discussion. It is being 
held at the highest levels. There is obviously----
    Mr. Foster. You had mentioned that it was under review in 
the Administration.
    Mr. Dabbar. That's right.
    Mr. Foster. Can you--who were the scientists involved in 
that review in the Administration?
    Mr. Dabbar. The full Office of Science----
    Mr. Foster. In the Administration, you said.
    Mr. Dabbar. Well, at the Administration side----
    Mr. Foster. Yes, political appointees and above----
    Mr. Dabbar. Yes, so----
    Mr. Foster. --who are the scientists involved in that 
debate over ITER?
    Mr. Dabbar. Well, the scientists are coming from my office. 
At the White House, as you probably know, the office--the OSTP 
is not filled at this moment, and the input and the science is 
coming from DOE just to be--just to----
    Mr. Foster. Okay. So----
    Mr. Dabbar. --narrowly answer that question, but there was 
involvement from State, the National Security Council, OMB, and 
DOE.
    Mr. Foster. Well, there are two, you know, scientific 
committees. The National Academy----
    Mr. Dabbar. That's right.
    Mr. Foster. --has an ongoing thing----
    Mr. Dabbar. Yes.
    Mr. Foster. --and FESAC, the Fusion Advisory Committee, is 
I think----
    Mr. Dabbar. That's right.
    Mr. Foster. --meeting this week if I'm not mistaken.
    Mr. Dabbar. They are.
    Mr. Foster. And so you are actually going to listen to 
those or will this be a political decision on the 
Administration?
    Mr. Dabbar. This is a decision in which science is going to 
be a big part. Obviously, there's also interest on the part of 
the European Union and others who advocate for this not only 
from a science perspective but from a broader perspective. And 
so all those. And, as you probably know, there's two National 
Academy reviews going on, one in which there was a draft out, 
and one which is still coming out that's a bit broader. All 
those are going to be inputs, which is why I think this 
decision is going to take longer than the budget rollout 
because we want to have all the data points. But it's being 
taken very seriously at a very high level.
    Mr. Foster. Yes. And it's your intentional to make it 
during this calendar year, this current calendar year?
    Mr. Dabbar. I believe so because it is very active.
    Mr. Foster. All right. Thank you. I yield back.
    Mr. Weber. I thank the gentleman for yielding.
    And, Dr. Abraham from Louisiana, you are recognized.
    Mr. Abraham. Thank you, Mr. Chairman.
    And, Secretary Menezes, it's an honor to have you 
representing, as a native son of Louisiana, in such a position 
of responsibility, so thank you for saying yes.
    The--I agree with you that it's a good thing that the 
hierarchical accountability has been somewhat changed in the 
DOE, and I applaud Secretary Perry for recognizing how 
evolutionary science is now and how quickly things can change.
    Secretary Dabbar, you mentioned on your litany of good 
things that are happening at the DOE in your opening statement 
of the gene editing that is taking place, so as you and I both 
know it started with the CRISPR-Cas9 science or breakthrough, 
and I'm told that also being on the Agricultural Committee that 
in a very short period of time, food supply will need to be 
three times what it is now just to supply the world with some 
food. And it is through this gene editing that I think we can 
meet that goal and move forward and actually feed the world. 
And without it, I think we have starving people globally, and 
that would be an unfortunate thing.
    Secretary Menezes, in your opinion in the applied energy 
offices, could you provide an example of the advancement in 
technology that could only be accomplished by the government? 
And on the flip side of the coin, what about investments and 
studies that are better suited for the private industry?
    Mr. Menezes. Well, certainly in the world of nuclear the 
INL lab is performing research that really can only be done 
funded by the government. That is--it's high capital expense. 
It's very technical. It's science-driven, and it is in support 
of what the industry is doing. So in the world of nuclear I 
think that we brought the very first nuclear reactor to 
generate electricity, so that continues to be an example.
    And your second question was?
    Mr. Abraham. Well, what about on the private side? What--
where can they be best suited as far as investments in 
technology innovation? Where are they better than the 
government?
    Mr. Menezes. So in fossil energy--our program office has 
done preliminary research on rare earth elements, and--
identifying and capturing rare earth elements from coal waste 
byproducts, for example. They did the core samples, they did 
the analysis, and they are now approaching creating ways to 
actually capture, produce, process, and make it eventually 
commercially available. The significance of that is that we 
would no longer be dependent on China for the majority of our 
rare earth elements. And so that's an example where I think 
with the program office, with a bit more work, we'll eventually 
I think hopefully commercialize that.
    Mr. Abraham. And it's my understanding that we're way 
behind China in rare earth elements mining and development and 
accumulation. Is that a correct statement?
    Mr. Menezes. We know that a large majority of the rare 
earth elements globally is produced by China.
    Mr. Abraham. And my follow-up question, the DOE national 
labs have consistently accomplished research and technology 
goals established by the DOE. Would you support DOE's research 
programs to develop specific goals or mission-oriented 
technological development in critical areas such as advanced 
nuclear reactors, advanced fossil fuel energy systems, and 
those types of deals?
    Mr. Menezes. Yes, sir. Our program officers regularly 
project timelines, technological achievements both in a linear 
fashion and goal-oriented to gain the advantages throughout the 
program offices. So it's in our DNA so to speak, and yes, you 
will have our commitment to do that.
    Mr. Abraham. Okay. Thank you. I yield back, Mr. Chairman.
    Mr. Weber. The gentleman yields back.
    The gentleman from Colorado, Mr. Perlmutter, is recognized.
    Mr. Perlmutter. Thank you, Mr. Weber.
    And, gentlemen, thank you for your service and thanks for 
your testimony today.
    And you've heard from particularly the guys from Illinois, 
who I think both of them want to be president of their Chamber 
of Commerce because they're very proud of their laboratories. 
Obviously, I'm very proud of the National Renewable Energy Lab 
in my district.
    And I've been encouraged by your testimony today. I'd like 
to ask both of you in 20 words or less, if you can do it, what 
you think, Mr. Dabbar, your mission is as the Under Secretary 
for Science.
    Mr. Dabbar. To move forward the bounds of knowledge that we 
know through execution of our research programs.
    Mr. Perlmutter. Okay. And, Mr. Menezes?
    Mr. Menezes. Well, to apply the science and the 
technologies that we develop to continue to ensure that our 
energy will continue to unlock economic prosperity for all.
    Mr. Perlmutter. Okay. And again, I'm encouraged by those 
mission statements and really by your testimony today. I mean, 
you know, my fear--and between--from one Administration to the 
next, there's going to be ebbs and flows between renewable 
energy and fossil fuels, between basic science research and 
maybe applied science research, and that's okay. My concern, 
and it--and I want to echo what Mr. Tonko had to say--is, you 
know, recently we--and I did a math problem for a panel a few 
weeks ago. There were two lawyers, so I picked on by brothers 
from the bar in doing the math problem, two scientists.
    My fear is after these big tax cuts that we just passed of 
$1 trillion, $500 billion at best and maybe $2 trillion, that 
your Department is going to be under siege to just cut like 
crazy. And currently, the EERE budget goes from about $2.07 
billion to $636 million, so it's a 70 percent cut. Now, that's 
a little more than the ebb and flow that ordinarily occurs from 
Administration to Administration, but you gentlemen are going 
to be under a lot of pressure, given what we just passed here 
in Congress and that the President signed.
    So just to fiddle around a little bit, the math problem--so 
it's one and a half trillion. You know how many times $2.07 
billion goes into that tax cut we just did? And I'm not going 
to mess with you. It's 750 times. So we have 750 years' worth 
of renewable energy and energy efficiency research that both of 
you just listening to your testimony--and you might move a 
little more to hydraulic fracking or how exactly, you know, 
combustion occurs, and that's okay. I just want to make sure 
that the missions that you both just stated you feel you've 
undertaken can be fulfilled. And I'll just open it up--you 
know, I'm going to put a question mark on that and ask you, Mr. 
Menezes, first, how you think you're going to be able to do 
that?
    Mr. Menezes. Well, I have come to learn, after having been 
counsel to an authorizing committee, that it is a very 
complicated process out there when it comes to actually 
implementing what an authorizing committee has authorized. Of 
course, the budget is a key part of that. OMB plays a big role 
in that. Your appropriators also play a big role in that. And 
so we're put in the position of getting over there----
    Mr. Perlmutter. And you play a big role in that----
    Mr. Menezes. We do.
    Mr. Perlmutter. --in how you want to affect your mission.
    Mr. Menezes. We do, and we find that we have to work with 
the appropriators and OMB. Within the Departments and within 
the labs--and you all have had oversight over this and you know 
how well the Department collaborates, has crosscutting projects 
and programs, and they're able to make the best with the 
resources that they have ultimately after the appropriators 
appropriate the money.
    Mr. Perlmutter. All right. Let me ask Mr. Dabbar how he 
thinks he's going to be able to continue this mission of, you 
know, really expanding the bounds of knowledge.
    Mr. Dabbar. You know, I had my first captain when I was in 
a submarine said, you know, ``The real mark of leadership is 
not having unlimited things to work with but is doing the best 
that you can with the resources that you're given.'' And that's 
how I've always looked at my life. The reality is the Office of 
Science has an almost unlimited set of things that it could go 
after. And every single day, no matter how much you all as 
appropriators give us, there is more to do and it is vast. And 
even within a bound, we as capital allocators working with you 
all in terms of advocacy trying to figure out where quantum 
computing fits versus light sources versus regular high-
performance computing versus materials, fusion, it keeps going 
on. And so this is a topic that comes up no matter how much 
gets appropriated and have to balance all the different issues 
that we've just been talking about here today.
    And we're going to move things forward as much as the 
resources are given to us, and the reality is we will be 
flexible as appropriate at whatever is authorized, and we will 
be grateful and be good stewards of the taxpayers' funds.
    Mr. Perlmutter. All right. Thank you for your testimony and 
thanks for your service.
    Mr. Weber. Mr. Dunn, you're recognized for five minutes.
    Mr. Dunn. Thank you very much, Mr. Chairman. We've been 
enjoying the look in the future. I want to step back into the 
here and now just for a minute.
    I'm a physician. We use nuclear isotopes every day we go to 
work, and I've noticed in the last few years that America is 
struggling to generate the medical isotopes that we've already 
developed, but we have to go on and generate them day after 
day. And we've become dependent on Canadian reactors that are 
obsolescent, have been kept open well past their lifespan and 
on accelerators in Moscow that are decaying and so I would like 
it if you could give me--show me a little sunshine here on 
this. Tell me what we have got in the future to generate 
nuclear isotopes for medicine if you would. I'm thinking about 
things like, you know, rubidium and on the therapeutic side 
radium 223 and things like that.
    Mr. Dabbar. Clearly, there's more to do and frankly there's 
always more to do in the isotope side on the medical point. The 
isotope program for the Department--and I'm glad to have a 
separate meeting with you to go through all the details----
    Mr. Dunn. I'd love to do that.
    Mr. Dabbar. But in reality it's partially run like a 
business. And we've actually been able to generate funds with 
an isotope program to expand facilities. And we have 
significant engagements with the market looking at isotope by 
isotope, seeing where the opportunities are and where to 
actually invest funds that, as we go and sell isotopes, where 
we reinvest funds associated with the sales to expand 
production. We have meetings--public meetings with public 
entities, and we actually had meetings with industrial partners 
at a vast amount of the healthcare industry to identify what 
they're looking at from a market perspective and what we could 
go and produce. So there's a very dynamic engagement between 
the two.
    Mr. Dunn. Yes, and I've been involved with that actually 
personally in my practice. I could tell you that it's--that 
we've had a great deal of rewarding time spent with some of 
your predecessors. I will tell you that the process is a little 
slower than we--and there are simply times we don't have the 
isotopes we need----
    Mr. Dabbar. Yes.
    Mr. Dunn. --to diagnose and treat patients, so it gets down 
to the--you know, to the bedside. We really just--we run short.
    I'm going to--if I could go back to the future--maybe this 
is back to the past--talk about the next generation fission 
reactors, again, the generation four. We've had the two's, the 
three's, the light water reactors. I'm sort of fascinated--I'm 
wondering what we need to do to get the very high temperature 
fast reactors that--you know, that will reprocess some of the 
fuel that's now wasted, you know, expended fuel, we can 
reprocess that and also generate more. Can we not have a 
prototype of these?
    Mr. Dabbar. Right, and we have been discussing that this 
morning.
    Mr. Dunn. Yes.
    Mr. Dabbar. You know, if we had the adequate resources. We 
certainly have prioritized small modular reactors. We have also 
prioritized microreactors. We've prioritized trying to use the 
thermal heat from nuclear to create other products, so it's a 
top priority in our nuclear program. It is working with 
Congress and it is working with the Administration to get the 
right level of resources, but the labs are ready to go on it, 
as well as the program office.
    Mr. Dunn. I think there's a sense of excitement on both 
sides of the aisle here to see some progress in that area.
    Mr. Dabbar. There is, and we had mentioned also the NRC 
process, so we're excited to--if we can to get that process 
underway and through it.
    Mr. Dunn. Thank you. So in the minute remaining I'm 
wondering if you gentlemen would speculate a little bit about 
applied research on grid integration and grid reliability. What 
are we doing to address the--hardening our grid and also 
diversifying it so it actually meets tomorrow's electrical 
needs?
    Mr. Dabbar. Yes, we are doing quite a lot. And indeed at 
the--at NREL we have the computer modeling, as well as 
prototypes to a much more flexible and open system, so we get 
inputs from behind the meter to help bring new generation 
online to help shave load, et cetera. One thing is that the 
more we make our system open and flexible, we need to make it 
resilient, and we need to make it----
    Mr. Dunn. Yes.
    Mr. Dabbar. --secure. So a top priority of us is to ensure 
that we develop the science on cybersecurity technology to--so 
as we make our system more flexible, more open, that we're also 
making a more secure, and that is a top priority. And the labs 
are doing quite a bit of work in both areas.
    Mr. Dunn. I look forward to hearing more from you in the 
future about that. Thank you very much.
    And, Mr. Chairman, I yield back.
    Mr. Weber. The gentleman yields back.
    The gentlelady from Oregon is recognized for five minutes.
    Ms. Bonamici. Thank you, Mr. Chairman, and thanks to the 
Chair and Ranking Member for holding this hearing and to our 
witnesses for being here.
    Last week, I visited the Portland office of the Pacific 
Northwest National Laboratory. The office focuses on greater 
energy efficiency in buildings; improved technologies for 
renewables, including wind, water, solar, and biomass; and also 
new vehicle technologies. Their innovative efforts should be a 
model for the industry nationwide. We've also in my State been 
a leader in marine energy and exascale computing, so I'm 
interested in hearing from our witnesses about how to advance 
these efforts.
    And I'll start with Under Secretary Dabbar. One of our 
nation's energy priorities should be making sure that America 
keeps pace with the rest of the world in developing exascale 
computing. That has implications, of course, for our national 
security and our competitiveness, so could you talk about what 
you are doing to further the developments in this area and how 
Congress can work with you to accelerate this priority?
    Mr. Dabbar. Thank you very much. Exascale is--of all the 
items when we go through our priorities in the Office of 
Science area underneath me--is number one. And we'd like to 
thank the Congress for appropriations and supporting that here 
over the last few years and focusing on that. It's--I think out 
of all the areas of the Office of Science and what we work on 
it's the area that is most competitive globally. And I think as 
you know, in the area of high-performance computing, China is 
really neck-and-neck with us on----
    Ms. Bonamici. Right.
    Mr. Dabbar. --individual systems that are coming online. So 
it is a high degree of focus. We would like to thank Congress 
for its support of that. Obviously, we're trying to roll out 
three exascale computers. The first one will be in Illinois at 
Argonne, the second one would be at Oak Ridge, and the third 
one will be at that NNSA facility. I think this is a great 
example of cross-department and cross-lab support because lots 
of examples on that, but NNSA and science have an official 
formal MOU on exactly how to go attack this and how to roll it 
out and how to work together.
    A second thing that's highly important is diversity in 
architectures. I think as you probably know, at Argonne we had 
a certain set of suppliers around Intel and IBM, and when we 
roll out the second one, we want to make certain that we 
provide diversity and support the industry on moving technology 
forward on exascale by actually going and asking for different 
suppliers to make sure we have a different architecture to 
really have competition and really to have diversity. So this 
is a high degree of focus.
    Ms. Bonamici. Thank you. And, I'm sorry, I want to try to 
get a couple more questions in. I appreciate that that's a 
priority.
    Under Secretary Menezes, marine energy systems include 
wave, tidal, and offshore hydrokinetic systems. The Northwest 
National Marine Renewable Energy Center in Oregon is building 
the first full-scale wave energy test facility in the United 
States with financial support from the Department of Energy. 
Recent economic analysis from Ocean Energy Europe and Marine 
Renewables Canada estimate that the global marine energy market 
will be worth about $62 billion by 2050 and support hundreds of 
thousands of jobs in the supply chain. We know European 
governments and Canada are spending millions of dollars per 
year supporting marine energy technology. China is spending 
billions of dollars annually. The U.S. Department of Energy and 
the Navy's spending combined has peaked at a fraction of what 
is spent in other areas to support this nascent domestic 
industry.
    So will you commit to developing marine energy and support 
increased funding for research and development in this sector 
so we can compete in the global market?
    Mr. Menezes. Yes, you have our commitment to do so. We 
believe in all-of-the-above and the exciting potential 
advancements in this area. We will continue to support.
    Ms. Bonamici. Terrific. I appreciate that because there's a 
tremendous amount of potential there.I want to go back to Under 
Secretary Dabbar and ask about environmental management. In 
recent years the--I'm from Oregon but just to the north is 
Hanford of course. The environmental management portfolio has 
dominated the time and attention of whichever Under Secretary 
has had it in his or her portfolio, and this was part of the 
rationale behind Secretary Moniz's restructuring to place the 
responsibility under a single Under Secretary to deal with 
those environmental management issues. So the new organization 
now has you overseeing this largest nuclear waste cleanup 
effort in the world, and the DOE Office of Science, the single 
largest supporter of research in the physical sciences in the 
United States. So how will you balance this portfolio to ensure 
that each of these extremely important missions receives the 
appropriate amount of attention?
    Mr. Dabbar. Yes, I mean, first of all we have a lot of 
great people and we have a lot of depth in the Office of 
Science and Environmental Management. The second thing is, you 
know, in terms of the focus on environmental management, the 
big overlap between the two is technology and project 
management. If you look at what actually the Office of Science 
does and what Environmental Management does, to a large degree 
it's contractor management, it's contracting, and it's project 
management. And they both do that very well.
    As I think you know, the Office of Science has an excellent 
set of experience on project management and costing. They have 
a lot of technologies that can be applied to environmental 
management, and we intend to merge those together.
    One other particular area--I sat on the Environmental 
Management Advisory Board for 12 years. I've been to Hanford 
many, many times. I started my career in nuclear engineering as 
a Radcon worker, and so I have personal experience also at 
managing those topics, know very much when topics come up 
exactly what the technical issues are and how to attack them. 
So I think we feel very comfortable around those together and 
the sort of skill sets that have overlap and the sort of people 
who are running them.
    Ms. Bonamici. I thank you. My time is expired. I yield 
back. Thank you, Mr. Chairman.
    Mr. Weber. I thank you, ma'am.
    The gentleman from Louisiana, Mr. Higgins, is recognized.
    Mr. Higgins. Thank you, Mr. Chairman.
    There has been a great deal of discussion on this committee 
today regarding budget and adequate resources. Mr. Chairman, we 
must decrease federal spending. It's our duty as a body to 
protect the people's treasure, and I remind my colleagues that 
we do serve a nation that's $20 trillion in debt.
    I certainly believe in an all-of-the-above energy policy, 
and I'm encouraged by the restructuring of DOE with an eye 
towards efficient service, doing more with less, and getting 
things done through private and public partnership. It strikes 
me that the iPhone that we use was a private endeavor. SpaceX 
is building towards a launch weekly. It's a private endeavor. 
Carbon recapture technology to produce energy onsite in the 
petrochemical industry and oil and gas industry was a private 
endeavor. So I believe that this focus on public-private 
partnership is the right direction for us to move to have a 
more efficient federal government that serves the American 
people.
    The pathway to the future certainly begins in our 
laboratories. As an example, in 2016, China developed a 
tabletop-sized laser that would--that managed a burst of laser 
light that developed 5.3 petawatts--that's 5.3 million billion 
watts roughly 500 times the power of all the world's electrical 
grids combined. That was a burst of less than a trillionth of a 
second. So the truth is that none of us here know where energy 
is going, but we do know that that pathway leads through our 
laboratories. And I'm encouraged with the focus on public-
private relationships.
    How does the Department--for--Mr. Dabbar, this is a 
question for you, sir. How does your Department plan to assist 
with the implementation and recommendations to improve 
flexibilities and streamline the national laboratory system 
based on the Commission to Review the Effectiveness of National 
Energy Laboratories or the CRENEL report?
    Mr. Dabbar. Yes, thank you. So the CRENEL report, which I 
certainly have reviewed several times, I think is a very 
important guideline for us and management of the national labs. 
One of the things that it recommended that we're currently 
executing on is contract--M&O contract restructuring. I think, 
as you probably know, over the course of time I think 
administrative burdens on our laboratories had increased and 
the CRENEL report certainly recognized that.
    And the Department worked with one lab to start off with in 
terms of restructuring contracts to try to reduce the 
administrative costs, and we did this first at Stanford. And so 
at the SLAC facility we took their contract, worked with them 
for quite a bit. There was some help with the Berkeley lab next 
door up the Bay area on redoing that contract, and we've done 
that and it's working. And we intend to roll that out to other 
contractors to try to reduce the administrative burden, to have 
people focus on the mission rather than Administration while 
still having appropriate oversight. And so we certainly intend 
to do that.
    Second, I want to point out is that when the Secretary came 
in, he pointed out that obviously with--give or take 100,000 
people between federal employees and contractors that report 
through the DOE complex, that there's probably various 
administrative points that are also impeding it beyond the M&O 
contractors.
    So we are now in phase II. We've already gone through phase 
I of identifying, having a cross group of contractors, lab 
directors, people inside the Department to identify things of 
that in terms of structural layouts, in terms of administrative 
points that either impede the mission, and we take--we're 
taking really a bottoms-up input from everyone on how to reduce 
the administrative costs and things that the stand in the way 
of the mission, and we very much are moving forward on finding 
very specific things to attack and how to improve and 
streamline the Department with groundswell support of that 
data.
    Mr. Higgins. Thank you for that very thorough answer and 
encouraging. Mr. Chairman, in the interest of the conservation 
of time, I'd like to submit my question to Mr. Menezes in 
writing. And I look forward to your response, sir. The question 
will be relative to the security of our grid and the use of 
existing proven energies, fossil fuel energies, and nuclear. 
Thank you, Mr. Chairman. I yield back.
    Mr. Weber. Without objection, the gentleman yields.
    The gentleman from California is recognized.
    Mr. Takano. Thank you, Mr. Chairman.
    The Department of Energy is currently four Energy 
Innovation Hubs, and the establishment of a fifth hub focused 
on the critical cross-cutting issue of energy--of the energy-
water nexus, and that was supported by Congress and signed into 
law by the President as part of the Consolidated Appropriations 
Act for 2017. These unique consortia bring together academia, 
industry, and the government to solve unique challenges. Yet 
without any clear justification provided, the Trump 
Administration has proposed to eliminate all of the hubs in its 
fiscal year 2018 budget proposal. Can either one of you provide 
me with an explanation for why this Administration--why it is 
the Administration's position to end the hubs model that has 
experienced so much success?
    Mr. Menezes. Well, as previously mentioned, we weren't 
involved in the budget process for fiscal year 2018.
    Mr. Takano. Well, if you don't have an answer, I'd like to 
move on to another question, and then you can come back to me 
with a--you know, an answer after you've had a chance to review 
it. All right. Thank you.
    I want to ask another question here about energy storage. 
We've seen great strides and we have interest on both sides of 
the aisle here. Dr. Dunn is very interested in this issue as 
well. We have seen great strides in battery storage energy in 
the last 5--last few years, but many of the largest 
improvements that have brought costs down have come from 
improvements in the manufacturing process. Conversations that 
I've had with the experts in this field agree that we need a 
few major breakthroughs in the actual research of the chemical 
composition and batteries themselves for us to realize the 
great potential of battery energy storage.
    Do you see energy storage research as early-stage research 
or will the Department continue to commit--and will the 
Department continue to commit to supporting energy storage 
research?
    Mr. Dabbar. I can say that it is a high priority of the 
Department. It's a high priority across all our program 
offices, and I would say back to your second-to-last question 
it is a mix of early stage and what I will call mid-stage. 
There's multiple different types of technologies that we have, 
and we're moving forward on some that are at the basic level 
and we think have a high degree of possibility. And we have 
some that are farther down the road. And as I mentioned 
earlier, we have a lot of engagement with the likes of United 
Technologies, Dow, General Motors on some of those, and we----
    Mr. Takano. That's----
    Mr. Dabbar. --we're fully supportive of that.
    Mr. Takano. Well, that's wonderful. Does that mean that you 
see it as a mix of some early--the part I mentioned about the 
chemical composition? That sounds like a good candidate for 
early stage--would fit in the category of being funded?
    Mr. Dabbar. Yes.
    Mr. Takano. Thank you. Last week, Moody's Investors Service 
released a report stating, quote, ``U.S. coal production will 
continue a steady secular decline without policy support for 
and continued investment in carbon capture and storage 
technology,'' end quote. The fiscal year 2018 budget proposal 
included major cuts to FE's research activities, including cuts 
of over 80 percent to carbon capture R&D and carbon storage 
research with advance energy systems receiving a nearly 60 
percent cut. But mostly these cuts were rationalized with a 
simple line about how industry can better commercialize these 
technologies and methods.
    I think the American people, especially those in coal 
States, are quickly realizing that the rhetoric this 
Administration uses to bring coal back might just be all talk 
and no action, especially as expressed in the Department of 
Energy's budget. Can you expect a declining industry with 
limited long-term risk tolerance to just immediately invest 
hundreds of millions of dollars into high-risk R&D to 
commercialize carbon capture technologies? Is that a rational 
expectation of us?
    Mr. Menezes. Well, it has been public-private partnership. 
All of the carbon capture and sequestration projects have 
always had some part of the project----
    Mr. Takano. So are you saying Moody's is wrong that it's 
not going to require a steady--that the secular decline is not 
going to be stanched unless we make a major investment?
    Mr. Menezes. No----
    Mr. Takano. You're telling me that major investment is 
going to happen from an industry that has a low-risk tolerance 
here?
    Mr. Menezes. No, I'm not saying that, but what I'm saying 
is----
    Mr. Takano. So you're not saying Moody is wrong? You agree 
with Moody's statement?
    Mr. Menezes. I don't have an opinion on Moody.
    Mr. Takano. Well, it's their statement. ``U.S. coal 
production will continue a steady secular decline without 
policy support for and continuing investment in carbon capture 
and storage technology.''
    Mr. Menezes. Right.
    Mr. Takano. That's a simple statement.
    Mr. Menezes. Right. The question is--if I can, it's--we 
fully support the carbon capture and sequestration efforts as 
past Administrations, and we continue to do that now. We have 
projects that are out there right now. We have Petra Nova. We 
have other facilities out there. It's going to be a question of 
resources. But it's not a question of whether or not we support 
carbon capture and utilization, carbon capture and 
sequestration. We----
    Mr. Takano. Mr. Menezes, I would suggest to you that this 
budget reflects an all-talk-and-no-action response to the 
people in coal States that were promised things. That's my 
suggestion to you.
    Mr. Menezes. Well, the Administration has done some things. 
They've lifted the coal lease moratorium, for example, so that 
alone is helpful. At least now the Department----
    Mr. Takano. Moody's goes to--I mean, that's a pretty big 
statement there about a steady secular decline----
    Mr. Menezes. Right.
    Mr. Takano. --without major investments.
    Mr. Menezes. It's true the industry has been on the 
decline----
    Mr. Takano. And your Administration is recommending a huge 
60 percent, 80 percent cuts in these programs.
    Mr. Weber. Would the gentleman like to continue to seek 
financial advice after the hearing?
    Mr. Takano. I'm not seeking financial advice, Mr. Chairman. 
I'm--this is a market newsletter that is saying that this is 
what's going to happen.
    Mr. Weber. Let's--the gentleman is----
    Mr. Takano. I'm not trying to seek advice here. I'm just 
trying to get--suss out here----
    Mr. Weber. Your--the gentleman's time is expired.
    Mr. Takano. Well, I see. Thank you.
    Mr. Weber. Thank you, Mr. Takano.
    Mr. Takano. Thank you.
    Mr. Weber. The gentleman from Alabama, Mr. Brooks, is 
recognized.
    Mr. Brooks. Thank you, Mr. Chairman.
    Mr. Menezes, is sustainable nuclear power a key component 
of electricity production in America?
    Mr. Menezes. Yes, it is. It's almost 20 percent of our 
electricity.
    Mr. Brooks. And how many nuclear power plants are currently 
under construction under this Department of Energy?
    Mr. Menezes. Well, we have the Vogtle plant----
    Mr. Brooks. In Georgia? Are you aware----
    Mr. Menezes. --in Georgia.
    Mr. Brooks. --of any others?
    Mr. Menezes. Not that I'm aware of.
    Mr. Brooks. What does the Department of Energy do to 
encourage construction of nuclear power plant new construction 
efforts?
    Mr. Menezes. Well, on the energy we have been talking about 
this morning about what INL has done with respect to trying to 
move along the technologies involved in the small modular 
reactors and the micro modular reactors, so we are doing 
research there. We're also working with the NRC to ensure that 
we can get licensing out of it timely so that we can bring some 
of these projects to market, so those are a couple of examples 
where we're trying to foster that.
    Mr. Brooks. Is the Department of Energy also involved in 
any way with funding, either tax credits or loan guarantees or 
anything of that nature, with respect to nuclear power plants?
    Mr. Menezes. Well, I know Congress is considering tax 
credits with respect to nuclear. I know in the past it has been 
there. I'm also aware of the Loan Program Office and the loan 
guarantees that have been there to assist nuclear projects. So 
the government has stepped up where to can to help facilitate 
the construction of nuclear facilities.
    Mr. Brooks. Well, with respect to what the Department of 
Energy is doing of which you are aware, how many new power 
plant--nuclear power plant constructions do you anticipate 
going online in the next year, two, or three?
    Mr. Menezes. Well, Vogtle is the one that I think we're all 
looking at.
    Mr. Brooks. But I'm talking about new ones.
    Mr. Menezes. No.
    Mr. Brooks. Oh, you're not aware of any successful efforts 
by the Department of Energy to start new nuclear power plants?
    Mr. Menezes. I'm not aware of any construction underway.
    Mr. Brooks. Well, I'm talking about not underway right now 
other than Vogtle because you've mentioned that one. I 
acknowledge that one in Georgia, but I'm talking about 
startups, new startups after Vogtle, are you familiar with any?
    Mr. Menezes. Specific projects? Other than the small 
modular reactor that I had referred to earlier in Idaho.
    Mr. Brooks. Are you familiar with the Bellefonte nuclear 
facility in Jackson County, Alabama, in my Congressional 
district?
    Mr. Menezes. I'm not aware of that.
    Mr. Brooks. Let me give you a little bit of information 
about it. American taxpayers, particularly TVA ratepayers, have 
already spent over $5 billion on the construction of that 
nuclear power plant. For whatever reason, the TVA last year 
decided to sell it for $111 million, probably resulting in 
Bellefonte being one of the worst if not the worst federal 
boondoggles in the history of our country with a $5 billion 
loss on their books to show for it.
    The Bellefonte facility was sold to Nuclear Development, 
LLC, as I mentioned, for $111 million with the principal owners 
behind Nuclear Development being Franklin Haney and the Haney 
family. It is projected if he's able to complete it and turn it 
into an operational nuclear power plant to create 2,000 
permanent jobs and roughly 4,000 construction jobs.
    There seem to be two barriers that we need to overcome--at 
least two that I'm aware of--to get this $5 billion facility 
put into operational form. One is a ruling that the TVA, if it 
wants to--can if it wants to--purchase power from Bellefonte at 
whatever rates TVA and the owner of Bellefonte can agree to. Do 
you have any reason for the Department of Energy not to support 
that kind of arrangement where the Tennessee Valley Authority 
can, if it wants to, have the right to purchase power produced 
at the Bellefonte nuclear facility if nuclear development 
should complete it?
    Mr. Menezes. From the Department's point of view I'm not 
aware of any objection that we would have with it.
    Mr. Brooks. Well, would you personally be willing to 
support TVA having the right to purchase nuclear power 
electricity generated at Bellefonte should it be completed if 
TVA wants to, not compelling them to but it would be a market 
decision if they want to?
    Mr. Menezes. I am certainly willing to get with you and 
your office and other interested parties to understand this 
fully and to see if the Department needs to in any way be 
involved in it.
    Mr. Brooks. And does the Department of Energy have any 
position on whether Nuclear Development, LLC, should have any 
access to any Department of Energy tax credits and/or loan 
guarantees with respect to the financing for this nuclear power 
plant, keeping in mind that federal taxpayers, TVA ratepayers, 
have already spent over $5 billion over three decades trying to 
get this facility operational?
    Mr. Menezes. Yes, I'm not aware of any applications in our 
Loan Program Office at this time so----
    Mr. Brooks. Well, would you please look into that and get 
back to me?
    Mr. Menezes. I will.
    Mr. Brooks. Apparently, that is one of the issues with 
respect to the completion of the Bellefonte nuclear plant is 
that we can get that thing online and so we can produce about 
2,000 jobs in the Jackson County area of Alabama. If you could 
look into these issues that I've raised and respond, I'd very 
much appreciate it.
    Mr. Menezes. I will. Thank you.
    Mr. Brooks. Thank you.
    Mr. Weber. The gentleman from South Carolina is recognized, 
Mr. Norman.
    Mr. Norman. This is for Mr. Dabbar. And I would just echo 
what Congressman Brooks said. Our district is similar to yours, 
the V.C. Summer Project, where it's been abandoned, $10 billion 
public-private money, mainly private money, $1.9 billion loss 
with no return on it. It's a huge problem in our State.
    But my question concerns the Savannah River Site. You know, 
it's not in my district but it covers 198,344 acres, 310 square 
miles. It's being held up on the Advanced Manufacturing 
Collaborative project in Aiken. Can you shed some light on what 
the holdup is and what we can do to get this unlocked?
    Mr. Dabbar. Yes, Congressman. We are in full support of 
that--of AMC. We know it's--it would have a tremendous impact 
on the community. We think it has--it would have a very strong 
impact on technology and the future mission of SRS.
    In 2016, it was a leased structure. A financing structure 
was proposed. There was some feedback around the accounting 
associated with it. This is a very technical accounting topic. 
Just this week, we finalized the changes that we thought would 
accommodate OMB on the particular financing structure, and we 
resubmitted it. We're waiting hopefully for relatively prompt 
feedback from them on what we think they have a good chance for 
approving.
    Mr. Norman. How do you define relatively prompt?
    Mr. Dabbar. We asked for it in the next month.
    Mr. Norman. Okay. Do you think we'll have something within, 
let's say, 45 days that we can rely on and take to them?
    Mr. Dabbar. I certainly hope so. It's a high priority of 
ours.
    Mr. Norman. Perfect. I yield back, Mr. Chairman.
    Mr. Weber. I thank the gentleman.
    The gentleman from Kansas is recognized.
    Mr. Marshall. Yes, thank you so much, Chairman. I want to 
talk about energy success stories, though, to kind of change 
the mood of the room. I represent one of the most energy-rich, 
energy-diverse States in the union, Kansas, and we contribute 
to this concept of energy independence, which is a national 
security issue. And we're blessed with some rich oilfields, 
natural gas. Those people are becoming more precise, more 
efficient in their efforts, and cleaner every day.
    We have more sunny days in Kansas than Florida does, and we 
think we have great potential for solar energy, but I want to 
lock in on wind energy for a second. Wind energy now represents 
about 35 percent of the energy production in Kansas, and we're 
now able to export energy. We're happy to send that energy down 
to my friends in Texas and up to Chicago as well.
    I remember sitting in a Rotary meeting 25 years ago when 
the person that ran that--ran the local co-op for energy 
production said, ``My gosh, wind energy will never work. It 
just--it doesn't blow all the time, and we'll never be able to 
solve the problems.'' So now we have those windfarms pretty 
much across the State of Kansas, and as we know, the wind blows 
somewhere in Kansas most every day. And now, we're building 
those interstate highways of being able to generate--being able 
to transport that energy down and out, which has been a big 
challenge for us.
    My people tell me that right now, we're probably 30 percent 
more efficient with wind energy by just the divine of the 
turbine and the shears and stuff. I guess my first question for 
Secretary Menezes is what type of future do you see for wind 
energy and support of technology and development research in 
the wind energy sector?
    Mr. Menezes. The future is bright for wind. You know, at 
NREL they are doing modeling right now to actually apply 
science to the turbulence in the placing and actually operation 
of these units to actually increase the efficiency capacity, 
for example, of those existing units that are currently 
operational and in the future siting, so we'll be able to have 
even more efficient siting of them.
    Also on the--wind has been such a big success story just 
for our manufacturing base. I mean, in the mid-'90s we really 
had no manufacturing whatsoever and now over 90 percent of the 
components are manufactured in the United States and they're 
spread out all over the United States.
    You know, one of the components is the nacelle, and so we 
hope that while we import a lot of the component parts of the 
nacelle in the wind turbines that we're hoping that with our 
labs we can actually be able to do more efficient manufacturing 
so that we can really just manufacture them here and not have 
to import them. So it's very bright. And as you know, the labs 
did some initial breakthrough technology on the airfoils, which 
is why we're able to achieve the increased efficiencies we have 
today.
    Mr. Marshall. Well, thanks for your continued support of 
the research there.
    My next question for Secretary Dabbar. We introduced a low-
dose radiation bill not too long ago, and that research had 
been abruptly stopped by the Obama Administration. As a 
physician, I see more and more of my patients exposed to 
radiation, whether it's a CT scan in the ER and just wonder if 
you can commit to support that reinvestment that we're hoping 
to authorize some time for this low-dose radiation research?
    Mr. Dabbar. Yes. And--yes. As someone who's gotten a lot of 
low-dose exposure in the nuclear power sector over the course 
of my life, I certainly support the need associated for low 
dose, and I certainly reviewed the bill that was proposed last 
time and know a little bit about the history of this at the 
Department before we were there. And should the appropriators 
here and authorizing committee move that forward, it is an 
important area, and we have resources to be able to restart 
that program if it is appropriated.
    Mr. Marshall. I think I'll finish up with just a question 
about battery technology if I could say what's holding back 
solar energy and making wind energy even better is some 
research in the battery. And you kind of alluded to it. And I 
just can't help but pontificate for a second and say that 
without a growing economy, none of this research happens, and 
I'm so proud that this economy--three quarters in a row with 
three percent GDP growth, maybe four percent this quarter, 
whether you want to build roads, bridges, you think education 
is important, if you think energy research is important, we 
need a strong economy, and I'm so proud that this country is 
moving back in that direction.
    Can any of you speak to what you see for battery storage 
power for the wind energy and solar energy of the future?
    Mr. Menezes. No, again, the only upside, right our battery 
technology we have a variety of different options. We have 
those that are nearing market that will increase efficiency, 
and we have basic research that's going on in our program 
offices and our labs that may come up with all new types of 
chemicals and types of batteries in the future. We have the 
Beyond Lithium program, for example. So we see a bright future, 
but we do see there's a bit of urgency in here because really 
it's the battery technology that will be the breakthrough 
technology that will certainly--with respect to electricity 
distribution it will solve a lot of deciding problems that we 
have today, so we're all looking forward to breakthroughs and 
commercialization of battery technology.
    Mr. Marshall. Yes, thank you. And I yield back.
    Mr. Weber. I thank the witnesses for their testimony and 
the Members for their questions. The record will remain open 
for two weeks for additional written comments and written 
questions from the Members.
    The hearing is adjourned.
    [Whereupon, at 12:18 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
